APPENDIX TABLE OF CONTENTS
Opinion of the Fifth Circuit
(March 28, 2019) ................................................. 1a
Order and Reasons of the District Court
(January 13, 2017)............................................ 27a
Judgment of the District Court
(January 18, 2017) ..................................... 42a
Decision and Order of Assessment of Civil Money
Penalty (May 28, 2019) .................................... 43a
Opinion of the Supreme Court in Anthony Perry

v. Merit Systems Protection Board

(June 23, 2017) ................................................. 61a

App.1a
OPINION OF THE FIFTH CIRCUIT
(MARCH 28, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
BANK OF LOUISIANA; G. HARRISON SCOTT;
SHARRY SCOTT; JOHNNY CROW,

Plaintiffs-Appellants,
v.
FEDERAL DEPOSIT
INSURANCE CORPORATION,

Defendant-Appellee.

________________________
No. 17-30044

Appeal from the United States District Court
for the Eastern District of Louisiana
Before: SMITH, DUNCAN, and
ENGELHARDT, Circuit Judges.
STUART KYLE DUNCAN, Circuit Judge:
The Federal Deposit Insurance Corporation
(“FDIC”) brought two enforcement proceedings against
the Bank of Louisiana and three of its directors
(collectively, the “Bank”) for violating federal banking laws. At the close of each proceeding, the FDIC
Board (“Board”) issued a final order penalizing the
Bank. In turn, the Bank petitioned this court for

App.2a
review of both orders pursuant to 12 U.S.C. § 1818(h)
(2), which vests “exclusive” jurisdiction to review
final Board orders in the federal circuit courts. But
the Bank also sued the FDIC in federal district court,
alleging various constitutional violations arising out of
the same enforcement proceedings. The sole issue on
appeal is whether the district court correctly dismissed the Bank’s lawsuit for lack of subject matter
jurisdiction. It did. We therefore AFFIRM.
I.
A.
Among its other responsibilities, the FDIC is
authorized to investigate and institute proceedings
against federally-insured banks and savings associations to prevent “unsafe or unsound practice[s]” and
to enforce federal banking laws and regulations. See
12 U.S.C. §§ 1811, 1818(b); see also Fed. Deposit Ins.
Corp. v. Bank of Coushatta, 930 F.2d 1122, 1124-26 (5th
Cir. 1991) (discussing FDIC’s “regulatory tools for dealing with troubled banks”). Exercising that authority,
the FDIC may issue a notice of charges (12 U.S.C.
§ 1818(b)), hold hearings (id. § 1818(h))1, issue ceaseand-desist orders (id. § 1818(b), (c)), and levy monetary
penalties (id. § 1818(i)).
This enforcement scheme includes “a comprehensive system for judicial review.” Rhoades v. Casey, 196
F.3d 592, 597 (5th Cir. 1999) (citing Bd. of Governors
of Fed. Reserve Sys. of U.S. v. MCorp Fin., Inc., 502
1 Such hearings “shall be conducted in accordance with the
provisions of chapter 5 of Title 5,” id., meaning the rules concerning
administrative hearings. See, e.g., 5 U.S.C. § 556 (providing
procedural and evidentiary rules for administrative hearings).

App.3a
U.S. 32, 37 (1991)). One may obtain judicial review of
a final agency order “exclusively” by “filing in the
[relevant] court of appeals of the United States . . . a
written petition praying that the order of the agency
be modified, terminated, or set aside.” 12 U.S.C.
§ 1818(h)(1), (h)(2)2; see also Rhoades, 196 F.3d at
597 (explaining “a party may obtain review of [an]
order issued by the banking agency by filing [a petition] in a Court of Appeals of the United States”)
(citing 12 U.S.C. § 1818(h)(2)); Groos Nat. Bank v.
Comptroller of the Currency, 573 F.2d 889, 894 (5th
Cir. 1978) (explaining “[j]udicial review of final agency
cease and desist orders is placed in the United States
Circuit Courts of Appeal by 12 U.S.C. § 1818(h)”).
Only in specific circumstances may federal district
courts exercise jurisdiction over banking agency orders.
For instance, upon issuance of a temporary ceaseand-desist order, a bank “may apply to [a] United
States district court . . . for an injunction setting aside,
limiting, or suspending the enforcement, operation,
or effectiveness of such order” pending completion of
administrative proceedings. 12 U.S.C. § 1818(c)(2).
And the agency itself may apply to a federal district
court to enforce its orders. See id. § 1818(i)(1). However,
unless otherwise provided, “no court shall have jurisdiction to affect by injunction or otherwise the issuance
or enforcement of any notice or order [under section
1818], or to review, modify, suspend, terminate, or
set aside any such notice or order.” Id.
2 “Review of such proceedings shall be had as provided in chapter
7 of Title 5,” id., meaning the rules concerning review of agency
proceedings. See, e.g., 5 U.S.C. § 706 (providing authority to
review agency action, including “interpret[ing] constitutional
and statutory provisions”).

App.4a
We have described these procedures in section
1818 as “a detailed framework for regulatory enforcement and for orderly review of the various stages of
enforcement.” Bd. of Governors of Fed. Reserve Sys.
v. DLG Fin. Corp., 29 F.3d 993, 999 (5th Cir. 1994)
(quoting Groos, 573 F.2d at 895). And we have
emphasized that “[section] 1818(i) in particular”—the
jurisdictional bar referenced above—“evinces a clear
intention that this regulatory process is not to be disturbed by untimely judicial intervention[.]” Id.; see
also Rhoades, 196 F.3d at 597 (noting “the Supreme
Court [has] held that the plain, preclusive language
of § 1818(i) ‘provides us with clear and convincing
evidence that Congress intended to deny the District
Court jurisdiction to review and enjoin’ administrative proceedings”) (quoting MCorp, 502 U.S. at 44).
B.
The Bank is a New Orleans-based community
bank founded in 1958 by G. Harrison Scott (“Scott”)
and his late partner, James Comiskey. Scott has
been chairman of the Bank’s Board of Directors since
its founding and has served as the Bank’s president
since 2005. In October and November 2013, the FDIC
brought two enforcement actions against the Bank,
alleging violations of various banking laws and
regulations. While those proceedings were pending
at different stages, in August 2016 the Bank and three
of its directors—Scott, Sharry Scott, and Johnny
Grow—sued the FDIC in federal district court, alleging
constitutional violations arising out of the enforcement
actions. We recount the intertwined history of these
actions in some detail.

App.5a
The first enforcement proceeding began on October 22, 2013. The FDIC alleged that the three directors
had caused the Bank to violate federal regulations
over a two-year period, specifically by approving
illegal loans in violation of Regulation O, 12 C.F.R.
§ 215.4, which limits the credit a bank can extend to
its executives, directors, and principal shareholders.
The directors were also charged with permitting
Bank insiders to overdraw their accounts while
avoiding overdraft fees. See generally Scott v. FDIC,
684 F. App’x 391 (5th Cir. 2017) (discussing charges
against the Bank). Following briefing and an
evidentiary hearing, the presiding administrative law
judge (“ALJ”) issued a decision on July 2, 2014,
recommending a $10,000 civil penalty for each director
in addition to costs and fees. On November 18, 2014,
the Board adopted the ALJ’s recommendation in a
final order. On December 22, 2014, the directors
petitioned our court for review. After staying the case
pending resolution of the second enforcement proceeding, we issued an opinion on April 4, 2017,
denying the directors’ petition. See id. at 397.
The second enforcement proceeding began on
November 1, 2013. The Bank was charged with operating in an unsafe and unsound manner and with
violating provisions of the Bank Secrecy Act,3 the
Electronic Funds Transfer Act,4 the Real Estate
Settlement Procedures Act,5 the Truth in Lending

3 31 U.S.C. § 5311 et seq.
4 15 U.S.C. § 1693 et seq.
5 12 U.S.C. § 2601 et seq.

App.6a
Act,6 the Home Mortgage Disclosure Act,7 and the
National Flood Insurance Program.8 The same ALJ
from the first proceeding conducted a six-day trial
and, on May 17, 2016, recommended that the FDIC
impose a $500,000 civil penalty and order the Bank
to cease and desist its violations. The Board adopted
the ALJ’s recommendation and issued a final order
on November 15, 2016. See Bank of La., FDIC-12489b, FDIC-12-479k, 2016 WL 9050999 (Nov. 15,
2016). As relevant here, the Board concluded that the
ALJ’s “lengthy, detailed, and well-reasoned opinion”
had “fully addressed” and properly rejected the Bank’s
arguments that the “FDIC’s examiners were motivated
by age discrimination against Scott,” that the Bank
was “denied due process” by certain ALJ rulings concerning document admissibility and witness sequestration, and that the ALJ was unconstitutionally
appointed. Id. at *2, *11-13. On December 19, 2016,
the Bank petitioned our court for review. We stayed
proceedings pending the Supreme Court’s decision in
Lucia v. SEC, which subsequently held that Securities
and Exchange Commission ALJs are “Officers of the
United States” under the federal Constitution’s Appointments Clause. See 138 S.Ct. 2044, 2049 (2018); U.S.
Const. art. II, § 2, cl. 2. On September 5, 2018, we
granted the FDIC’s motion to remand the case to the
agency in light of Lucia.
While the second proceeding was pending before
the Board (and while the first proceeding was pending
6 15 U.S.C. § 1601 et seq.
7 12 U.S.C. § 2801 et seq.
8 42 U.S.C. § 4001 et seq.

App.7a
on appeal before us), the Bank filed the instant
lawsuit in federal district court on August 4, 2016,
claiming the FDIC committed constitutional violations during the enforcement proceedings. Specifically,
the Bank alleged the FDIC denied it equal protection
by targeting Scott, the Bank’s president, due to his
age.9 The Bank further alleged the ALJ violated due
process by preventing it from proffering certain evidence
and by preventing Scott from talking with his counsel
at certain points during the proceedings. These were
the same constitutional claims considered and rejected
by the ALJ and the Board during the second enforcement proceeding. See Bank of La., 2016 WL 9050999
at *11-13.
The Bank originally sought a permanent injunction to prevent the Board from issuing a final order
in the second proceeding; a declaratory judgment
that the FDIC violated its constitutional and statutory
rights during both enforcement proceedings; damages;
sanctions; and attorney’s fees. After the Board issued
its second order on November 15, 2016, the Bank
abandoned its requests for injunctive relief and damages, leaving only its request for declaratory judgment.
9 For example, the Bank alleges that on January 29, 2013, an
FDIC employee stated in an email to another employee, “[T]his
place will never change until the old man dies.” But see Bank of
La., 2016 WL 9050999 at *11-13 (noting that “the Bank has not
identified any evidence of purported age discrimination that, if
credited, likely would change the outcome of this proceeding”
and concluding that “[w]hile this reference might be viewed in
context as insensitive or unkind, it cannot fairly be read to
demonstrate that FDIC staff harbored age-based animus toward
[the Bank]”).

App.8a
The FDIC moved to dismiss the Bank’s lawsuit
for lack of subject matter jurisdiction, asserting that
the statutory review scheme in 12 U.S.C. § 1818
precludes district court jurisdiction. The district court
granted the FDIC’s motion and dismissed the Bank’s
lawsuit without prejudice, emphasizing that the Bank
could assert its claims in this court on direct review
of the agency’s final order. The Bank appeals.
II.
We review a dismissal for lack of subject matter
jurisdiction de novo, accepting all well-pleaded facts
as true and viewing those facts in the light most
favorable to the plaintiff. Griener v. United States,
900 F.3d 700, 703 (5th Cir. 2018). “As a court of
limited jurisdiction, a federal court must affirmatively
ascertain subject-matter jurisdiction before adjudicating
a suit. A district court should dismiss where it
appears certain that the plaintiff cannot prove a
plausible set of facts that establish subject-matter
jurisdiction.” Venable v. La. Workers’ Comp. Corp.,
740 F.3d 937, 941 (5th Cir. 2014) (cleaned up). A
court may find that plausible set of facts by considering “(1) the complaint alone; (2) the complaint
supplemented by undisputed facts evidenced in the
record; or (3) the complaint supplemented by undisputed facts plus the court’s resolution of disputed
facts.” Spotts v. United States, 613 F.3d 559, 565-66
(5th Cir. 2010) (citation omitted). The party asserting
jurisdiction bears the burden of proof. Griener, 900 F.3d
at 703.

App.9a
III.
“Within constitutional bounds, Congress decides
what cases the federal courts have jurisdiction to
consider,” including “when, and under what conditions, federal courts can hear them.” Bowles v. Russell,
551 U.S. 205, 212-13 (2007); see also, e.g., La. Real
Estate Appraisers Bd. v. Fed. Trade Comm’n, 917
F.3d 389, 394 (5th Cir. 2019) (federal courts “cannot
act without authority from Congress or the Constitution”) (citing Kokkonen v. Guardian Life Ins. Co.
of Am., 511 U.S. 375, 378 (1994)). As a general
matter, federal district courts have subject matter
jurisdiction over all civil cases arising under the Constitution and federal law. U.S. Const. art. III, § 2; 28
U.S.C. §§ 1331, 2201. But sometimes Congress leapfrogs
district courts by channeling claims through administrative review and directly to federal appellate
courts. See Elgin v. Dep’t of Treasury, 567 U.S. 1, 9
(2012) (explaining Congress may “channel[ ] judicial
review of a constitutional claim” through “a statutory
scheme of administrative review followed by judicial
review in a federal appellate court[,] [thereby] preclud[ing] district court jurisdiction”) (citing Thunder
Basin Coal Co. v. Reich, 510 U.S. 200, 206 (1994)). In
that event, federal district courts lack subject matter
jurisdiction to hear those claims. See, e.g., Arbaugh
v. Y&H Corp., 546 U.S. 500, 515 n.11 (2006) (explaining
“Congress has exercised its prerogative to restrict the
subject-matter jurisdiction of federal district courts
based on a wide variety of factors”); Dresser v. Meba
Med. & Benefits Plan, 628 F.3d 705, 708 (5th Cir.
2010) (district court properly dismissed lawsuit as
“an attempt to circumvent the channeled path for
judicial review” when review scheme required appeal

App.10a
from agency “to a federal circuit court”). The question
in this case is whether Congress established such a
scheme in 12 U.S.C. § 1818, which is the regulatory
process deployed by the FDIC in its enforcement
proceedings against the Bank. If it did, then the district court lacked subject matter jurisdiction over the
Bank’s separate lawsuit challenging the constitutionality of those proceedings.
Congress may preclude district court jurisdiction
either explicitly or implicitly. To discern an explicit
preclusion, we examine whether “the text . . . expressly limit[s] the jurisdiction that other statutes confer
on district courts,” such as 28 U.S.C. § 1331. Free
Enter. Fund v. Pub. Co. Accounting Oversight Bd.,
561 U.S. 477, 489 (2010); see also, e.g., Elgin, 567
U.S. at 25 (Alito, J., dissenting) (explaining that,
“[w]hen dealing with an express preclusion clause
. . . we determine the scope of preclusion simply by
interpreting the words Congress has chosen”) (citing
Shalala v. Ill. Council on Long Term Care, Inc., 529
U.S. 1, 5 (2000)).
To discern an implicit preclusion, we engage in a
more complex analysis. We first ask whether it is
“fairly discernible” from the “text, structure, and
purpose” of the statutory scheme that Congress
intended to preclude district court jurisdiction. Elgin,
567 U.S. at 10 (quoting Thunder Basin, 510 U.S. at
207). We then ask whether the “claims at issue ‘are
of the type Congress intended to be reviewed within
th[e] statutory structure.”’ Free Enter. Fund, 561
U.S. at 489 (quoting Thunder Basin, 510 U.S. at 212).
To help answer that second question, the Supreme
Court has identified three “factors,” sometimes referred
to as the “Thunder Basin factors.” See Thunder Basin,

App.11a
510 U.S. at 212-13. Specifically, we inquire (1) whether
precluding district court jurisdiction “could foreclose
all meaningful judicial review”; (2) whether the Bank’s
“suit is wholly collateral to a statute’s review provisions”; and (3) whether its claims are “outside the
agency’s expertise.” Elgin, 567 U.S. at 15 (quoting
Free Enter. Fund, 561 U.S. at 489; Thunder Basin,
510 U.S. at 212-13). Several of our sister circuits
have used this framework to analyze an administrative review scheme in SEC enforcement proceedings. See, e.g., Jarkesy v. SEC, 803 F.3d 9, 12 (D.C.
Cir. 2015) (applying this “framework” to determine
“whether Congress intended exclusivity when it
established the statutory scheme” for reviewing SEC
enforcement orders in 15 U.S.C. § 78y(a)(1) and similar
statutes); see also Bennett v. SEC, 844 F.3d 174, 181
(4th Cir. 2016); Hill v. SEC, 825 F.3d 1236, 1241
(11th Cir. 2016); Tilton v. SEC, 824 F.3d 276, 281 (2d
Cir. 2016); Bebo v. SEC, 799 F.3d 765, 768-69 (7th
Cir. 2015). We find that framework helpful in confronting the analogous question presented here.
A.
The parties and the district court addressed the
question presented under the implicit preclusion
analysis, and we therefore do the same. Consequently,
we first ask whether it is “fairly discernible” from the
text, structure, and purpose of 12 U.S.C. § 1818 that
Congress intended to preclude district court jurisdiction over the Bank’s claims against the FDIC. Agreeing
with the FDIC, the district court concluded that its
jurisdiction was precluded by the “clear text” of
§ 1818(i)(1). That subsection provides that, unless
otherwise allowed, “no court shall have jurisdiction to
affect by injunction or otherwise the issuance or

App.12a
enforcement or any notice or order under [§ 1818], or
to review, modify, suspect, terminate, or set aside
any such notice or order.” Id.
On appeal, the Bank makes no argument with
respect to this first step of the analysis. In fact, the
Bank “concedes that it is fairly discernible from the
face of . . . § 1818 that Congress intended to limit the
jurisdiction of district courts over certain claims
seeking review of FDIC Board actions.” The Bank
instead reserves its arguments for the three Thunder
Basin factors, which, it claims, show Congress did
not intend to preclude its claims. See infra III.B.
The Bank wisely concedes that the section 1818
scheme displays Congress’ intent to preclude district
court jurisdiction over claims against the FDIC arising
out of enforcement proceedings. Our precedent virtually
compels that concession. Even setting aside the specific jurisdictional bar in section 1818(i)(2), we have
described the section 1818 scheme as a “comprehensive
system for judicial review” of agency orders, Rhoades,
196 F.3d at 597, and a “detailed framework . . . for
orderly review of the various stages of enforcement,”
DLG Financial, 29 F.3d at 999 (quoting Groos, 573
F.2d at 895); see supra I.A. Following an administrative
hearing, the Board reviews the ALJ’s recommendation
de novo and issues a final order, which is routed for
“exclusive” review directly to a federal appellate
court. See 12 U.S.C. § 1818(h)(1)–(2). District court
jurisdiction is prescribed only in specific circumstances
not present here. See id. § 1818(a)(8)(D), (c)(2), (d),
(f), (i)(1), (i)(2)(I)(i), (n). This calibrated structure is,
for present purposes, materially the same as review
structures the Supreme Court and sister circuits
have found expressive of Congress’ intent to preclude

App.13a
district court jurisdiction. See, e.g., Bennett, 844 F.3d
at 181-82; Hill, 825 F.3d at 1242-45; Tilton, 824 F.3d
at 281-82; Jarkesy, 803 F.3d at 16-17.
Furthermore, if the general section 1818 scheme
were not enough to show Congress’ preclusive intent,
the jurisdictional bar in section 1818(i)(1) ices the
cake. Both the Supreme Court and our court have
“held that the plain, preclusive language of § 1818(i)
‘provides . . . clear and convincing evidence that Congress intended to deny the District Court jurisdiction
to review and enjoin’ administrative proceedings.”
Rhoades, 196 F.3d at 597 (quoting MCorp, 502 U.S.
at 44). We have added that this section “evinces a
clear intention that [the section 1818] regulatory
process is not to be disturbed by untimely judicial
intervention[.]” DLG Fin. Corp., 29 F.3d at 999. And
we have held that the section’s specific prohibition
against affecting agency orders “by injunction or
otherwise” encompasses declaratory relief, which is
what the Bank seeks. See Groos, 573 F.2d at 895.
Thus, as the FDIC correctly argues, the plain text of
section 1818(i)(1) makes this case easier than the
sister-circuit cases, which interpreted an SEC enforcement scheme lacking a similarly explicit jurisdictional bar. Cf., e.g., Bennett, 844 F.3d at 177; Jarkesy,
803 F.3d at 13.
Indeed, so robust is the section 1818(i)(1) bar
that, on appeal, the FDIC invites us to stop there and
decline to analyze the three Thunder Basin factors. It
is a tempting offer. After all, the Thunder Basin
factors are a judge-made test for discerning whether
we should presume Congress has left district court
jurisdiction unimpaired. See, e.g., Elgin, 567 U.S. at
15 (the Thunder Basin factors invoke “our ‘presum-

App.14a
[ption] that Congress does not intend to limit [district
court] jurisdiction’) (quoting Free Enter. Fund, 561
U.S. at 489). Because the plain terms of section 1818
(i) bar jurisdiction here, the FDIC sensibly urges that
“no court-created presumption can change that
result.”10
Despite the attractiveness of this argument, we
think it prudent to cycle through the Thunder Basin
factors, as did the district court. Those factors reinforce the conclusion that the review scheme precludes district court jurisdiction over the Bank’s
claims.
B.
We proceed to the three Thunder Basin factors,
which help determine whether the “claims at issue
‘are of the type Congress intended to be reviewed
within th[e] statutory structure.’” Free Enter. Fund,
561 U.S. at 489 (quoting Thunder Basin, 510 U.S. at
10 Although unclear, the FDIC may effectively be arguing that
section 1818(i) “explicitly” limits the jurisdiction conferred on federal
district courts by statutes like 28 U.S.C. § 1331. See Free Enter.
Fund, 561 U.S. at 489 (explaining Congress may “expressly limit
the jurisdiction that other statutes confer on district courts”).
There is some authority for that proposition. See Abercrombie v.
Office of Comptroller of Currency, 833 F.2d 672, 677 (7th Cir.
1987) (holding that “§ 1818(i)(1) . . . expressly and unequivocally
deprived the district courts of jurisdiction over [civil money penalty]
assessments by the Comptroller under § 1818(i)(2)(i)”). We note,
however, that section 1818(i) does not reference other jurisdictional
statutes explicitly. Cf., e.g., Shalala, 529 U.S. at 5 (addressing
clause providing that “no action” on any Medicare claim “shall
be brought under section 1331 . . . of title 28”). In any event, we
need not resolve that issue because of our holding that the
statutory scheme withdraws district jurisdiction implicitly.

App.15a
212). Under those factors, “we presume that Congress does not intend to limit [district court] jurisdiction [1] if ‘a finding of preclusion could foreclose all
meaningful judicial review’; [2] if the suit is ‘wholly
collateral to a statute’s review provisions’; and [3] if
the claims are ‘outside the agency’s expertise.’” Free
Enter. Fund, 561 U.S. at 489 (quoting Thunder
Basin, 510 U.S. at 212-13) (brackets added). In the
Bank’s view, each factor shows Congress did not
intend to limit district court jurisdiction over its
claims against the FDIC. We consider each factor in
turn.
1.
The Bank argues that the section 1818 scheme
fails to provide “meaningful judicial review” because
the ALJ allowed only “limited discovery” that “did
not afford [it] adequate opportunity to uncover the
remainder of the evidence bearing on” its age discrimination and due process claims. The district
court correctly rejected this argument.
The Supreme Court has held that Congress
provides meaningful judicial review by authorizing
review of challenges to a final agency order by a
federal circuit court. See Elgin, 567 U.S. at 17 (concluding the Civil Service Reform Act afforded meaningful review by “provid[ing] review in the Federal
Circuit, an Article III court fully competent to adjudicate petitioners’ [constitutional] claims”); Thunder
Basin, 510 U.S. at 215 (concluding “petitioner’s statutory and constitutional claims” regarding the Federal
Mine Safety and Health Amendments Act “can be
meaningfully addressed in the Court of Appeals”); see
also Bennett, 844 F.3d at 186 (concluding petitioner

App.16a
“can obtain meaningful judicial review of her constitutional claims under [the Securities Exchange
Act] by proceeding in the administrative forum and
raising her claims in a federal court of appeals in due
course”); Tilton, 824 F.3d at 286-87 (concluding that
“appellants will have access to meaningful judicial
review of their Appointments Clause claim through
administrative channels” which include review in a
circuit court); Jarkesy, 803 F.3d at 20 (observing that
“the SEC scheme presents an entirely meaningful
avenue of relief’ given that “a court of appeals is
available to hear . . . challenges” to the Commission’s
final order) (internal quotation marks deleted). Indeed,
there can be meaningful review in the circuit court
even if the agency itself lacks authority to decide the
constitutional question presented. See, e.g., Elgin,
567 U.S. at 17 (concluding court of appeals can
provide meaningful review of constitutional challenge
“‘[e]ven if’ the administrative body could not decide
the constitutionality of a federal law”) (quoting Thunder
Basin, 510 U.S. at 215); see also Jarkesy, 803 F.3d at
19 (concluding Commission’s lack of authority to
address constitutional questions “is of no dispositive
significance” because petitioner’s constitutional claims
“can eventually reach an Article III court fully competent to adjudicate them”) (cleaned up).
The statutory scheme at issue in this case
authorizes review of final Board orders in a federal
circuit court. See 12 U.S.C. § 1818(h)(2); Rhoades,
196 F.3d at 597. Based on that alone, the scheme
would provide meaningful judicial review of the Bank’s
claims that the enforcement proceedings were tainted
by constitutional violations. See, e.g., Bebo, 799 F.3d
at 767 (holding meaningful judicial review not fore-

App.17a
closed because, “[i]f aggrieved by the SEC’s final decision, [petitioner] will be able to raise her constitutional claims in this circuit or in the D.C. Circuit”).
But there is more: The Bank in fact raised its constitutional claims during the enforcement proceedings,
and both the ALJ and the Board addressed them. As
the Board observed, the ALJ wrote a “lengthy, detailed,
and well-reasoned. opinion” that “fully addressed”
the Bank’s age discrimination, due process, and
separation-of-powers claims. 2016 WL 9050999 at *2,
11. The Board in turn reviewed, and approved, the
ALJ’s recommendations. For instance, the Board
rejected the Bank’s age discrimination claim as based
on “speculation” that “cannot surmount the ample
evidence in the record showing the legitimate regulatory concerns that prompted each of [the FDIC’s]
actions.” Id. at *11; see also id. at *12-13 (reviewing
and agreeing with ALJ’s rejection of the Bank’s due
process claims); id. at *13 (reviewing and agreeing
with ALJ’s rejection of the Bank’s Appointments
Clause challenge to ALJ authority). The Bank then
sought our review of the Board’s order—and actually
obtained relief when we granted the FDIC’s motion
to remand the case in light of the Supreme Court’s
Lucia decision. See Bank of La. v. FDIC, No. 1660837 (5th Cir. Sept. 5, 2018) (order). If this is not
“meaningful judicial review” of the Bank’s constitutional claims, we do not know what would qualify.
The Bank’s situation is therefore unlike the one
in Free Enterprise Fund, where a plaintiff would
have had to “bet the farm” to obtain judicial review of
his claim. In that case, the Supreme Court concluded
that the Sarbanes-Oxley Act did not provide meaningful judicial review of a challenge to the constitu-

App.18a
tionality of the pertinent agency board. 561 U.S. at
489-91. Under the applicable review scheme, the
petitioner would have had to voluntarily “incur a
sanction” at the board level to raise its constitutional
claim in the circuit court, risking “severe punishment
should its challenge fail.” Id. at 490. The Supreme
Court “d[id] not consider this a ‘meaningful’ avenue”
for a constitutional challenge, id. at 491 (quoting
Thunder Basin, 510 U.S. at 212), because plaintiffs
typically need not “‘bet the farm . . . by taking the
violative action’” before challenging a law’s validity.
Free Enter. Fund, 561 U.S. at 490 (quoting Medimmune, Inc. v. Genentech, Inc., 549 U.S. 118, 129
(2007); see also McNary v. Haitian Refugee Ctr., Inc.,
498 U.S. 479, 496-97 (1991) (finding no meaningful
review for aliens’ denial of special worker status
when circuit review could be obtained “only if [aliens]
voluntarily surrender[ed] themselves for deportation”).
We have nothing like that here. The Bank was
“already embroiled in an enforcement proceeding’ and
so “need not take any additional risks” to assert its
constitutional claims. Bennett, 844 F.3d at 186. Unlike
in Free Enterprise Fund, then, the Bank did not have
to “bet the farm” to challenge agency action. The
farm was already on the table.
The only argument the Bank seriously presses
on appeal is that the ALJ “barred [it] from developing
the factual record necessary” to support its constitutional claims. This is hyperbole. Elsewhere in its
briefs, the Bank concedes that the ALJ allowed it
“limited discovery” and complains only that “[t]he
ALJ denied some of the Bank’s requests for discovery” (emphasis added). This is hardly grounds to
accuse the agency of denying “meaningful review” of

App.19a
the Bank’s claims: Discovery requests may just as
likely be rejected by district courts as by agencies.
See Jarkesy, 803 F.3d at 22 (observing that the
petitioner’s “[discovery] requests might well have
met the same result had he attempted them in the
district court”).
In any event, numerous courts, including the
Supreme Court, have consistently rejected similar
arguments based on agency fact-finding capacities.
In Elgin, for example, the Supreme Court held that
the pertinent review scheme “fully accommodate[d]
[the claimant’s] potential need to establish facts
relevant to his constitutional challenge,” by empowering
the agency to take evidence and find facts. 567 U.S.
at 19. Several sister circuits have reached the same
conclusion.11
We have no reason to doubt that the review
scheme here similarly provides adequate tools for
developing the necessary record for the Bank’s claims.
As the Bank correctly concedes on appeal, the FDIC
“is equipped to do fact-finding.” The pertinent statute
expressly incorporates the procedural and evidentiary
accoutrements typical of administrative proceedings—
including the power to issue subpoenas, take evidence,
and order depositions. 12 U.S.C. § 1818(h); see also 5
11 See, e.g., Hill, 825 F.3d at 1249-50 (holding the tools available
in the administrative process, such as the ability to call witnesses,
“do not leave [a plaintiff) without a meaningful avenue to
develop the record”); Jarkesy, 803 F.3d at 21 (explaining that
the administrative process does not “categorically preclude
[petitioner] from accessing the evidence he believes he needs”);
Bebo, 799 F.3d at 773 (concluding an agency’s “fact-finding
capacities, even if more limited than a federal district court’s,
are sufficient for meaningful judicial review”).

App.20a
U.S.C. § 556(c)(2)-(4) (authorizing agency hearing officer
to “issue subp[o]enas authorized by law,” to “rule on
offers of proof and receive relevant evidence,” and to
“take depositions or have depositions taken when the
ends of justice would be served”). Finally, even
assuming the Bank is correct and the ALJ wrongly
curtailed discovery our court could remand to the
agency for further factfinding, which underscores the
point that the scheme provides meaningful judicial
review of the Bank’s claims. See Jarkesy, 803 F.3d at
22 (observing that, “should the [administrative record
. . . prove inadequate,” the court of appeals “always
has the option of remanding to the agency for further
factual development”) (internal quotation marks and
citations omitted).12
In sum, a finding that the review scheme precludes
district court jurisdiction would not “‘foreclose all
meaningful judicial review’” of the Bank’s constitutional
claims. Free Enter. Fund, 461 U.S. at 489 (quoting
Thunder Basin, 510 U.S. at 489). This factor therefore
points toward finding that the district court lacked
subject matter jurisdiction.

12 The Bank also suggests there is an inherent “conflict” in the
process (essentially because the FDIC is investigating its own
practices) that “hamstrung” its ability to develop its claims. The
Bank points to nothing in the record even hinting that any
“conflict” in the administrative process lay behind the ALJ’s
discovery rulings. Nor does the Bank cite any authority for the
proposition that a supposed “conflict” forecloses meaningful
judicial review—especially when the scheme provides a right of
review by a federal circuit court.

App.21a
2.
Turning to the second Thunder Basin factor, the
Bank argues that its claims are “wholly collateral” to
the administrative scheme because they did not
“challenge . . . the merits of the FDIC’s final order in
either proceeding,” but “[i]nstead . . . challenged the
unconstitutional animus behind the [FDIC] investigation and the attendant denial of due-process rights.”
The district court correctly rejected this argument.
The Bank’s constitutional claims arise directly
from alleged irregularities in the agency enforcement
proceedings. And the Bank raised those same claims
as defenses in the second enforcement proceeding.
See Bank of La., 2016 WL 9050999 at *11-13. The
Bank’s claims are thus “inextricably intertwined with
the conduct of the very enforcement proceeding the
statute grants the [FDIC] the power to institute and
resolve as an initial matter.” Jarkesy, 803 F.3d at 23
(cleaned up). In other words, those claims “do not
arise ‘outside’ the [FDIC] administrative enforcement
scheme—they arise from actions the [FDIC] took in
the course of that scheme.” Id. We therefore cannot
consider the Bank’s claims “‘wholly collateral’ to the
[FDIC enforcement] scheme.” Elgin, 567 U.S. at 21;
see also Bennett, 844 F.3d at 187 (claim not collateral
to agency proceedings when the “claim arises out of
the enforcement proceeding and provides an affirmative
defense”); Tilton, 824 F.3d at 288 (explaining claim
was not “wholly collateral” to the administrative
scheme when the “claim arose directly from [the
agency] enforcement action and serves as an affirmative
defense within the proceeding”).
The Bank counters that, in applying this factor,
we should instead focus on the substantive relation-

App.22a
ship between its claims and the agency proceedings,
and thus find that the Bank’s claims are “substantively
collateral to the banking-law issues the FDIC was examining.” It is true that a few circuits have suggested
this as a possible approach to the wholly collateral
factor. For example, while not adopting it, the Second
Circuit has observed that one “competing approach[ ]”
is to ask whether the claim is “substantively intertwined with the merits dispute that the proceeding
was commenced to resolve.” Tilton, 824 F.3d at 287;
see also Hill, 825 F.3d at 1251 (noting that one
“way[ ] to understand this factor” is to “compare the
merits of the . . . constitutional claims to the substance of the [administrative] charges”); Bebo, 799
F.3d at 773 (a possible approach is to “focus on the
relationship between the merits of the constitutional
claim and the factual allegations against the plaintiff
in the administrative proceeding”).
We need not decide whether focusing on substance over procedure is the proper way to apply the
wholly collateral factor. Even assuming we should
look only to substance, we would still find the Bank’s
claims are not wholly collateral to the agency proceedings. As we have seen, the Bank’s age discrimination and due process claims allege agency
misdeeds during the enforcement proceedings themselves. Thus, we would still find those claims “substantively intertwined with the merits dispute that
the proceeding was commenced to resolve.” Tilton,
824 F.3d at 287; see also, e.g., Jarkesy, 803 F.3d at
14 (concluding plaintiffs’ “various allegations of violations of their constitutional rights . . . are inextricably
intertwined with the conduct of the very enforcement
proceeding the statute grants the SEC the power to

App.23a
institute and resolve as an initial matter”). Indeed, in
rejecting those claims, the Board examined the merits
of the underlying agency action, underscoring the
point that the Bank’s claims are intertwined both
substantively and procedurally with the agency proceedings. See Bank of La., 2016 WL 9050999 at *1115.
In sum, the Bank has not shown that its “suit is
wholly collateral to [the] statute’s review provisions.”
Elgin, 567 U.S. at 15 (quoting Free Enter. Fund, 561
U.S. 477, 489). Therefore, this factor also points toward
finding that the district court lacked subject matter
jurisdiction.
3.
Turning to the third and final Thunder Basin
factor, the Bank argues that its constitutional claims
are “beyond the special expertise of the FDIC.” Once
again, the district court correctly rejected this argument.

Elgin is instructive here. In that case, the

Supreme Court explained that courts should not
“overlook the many threshold questions that may
accompany a constitutional claim and to which the
[agency] can apply its expertise.” Elgin, 567 U.S. at
22. They should instead consider whether the agency’s
“expertise can otherwise be brought to bear on [claims]
that challenge the constitutionality of a statute.” Id.
at 23; see also Tilton, 824 F.3d at 289 (noting Elgin
“adopted a broader conception of agency expertise in
the jurisdictional context”); Jarkesy, 803 F.3d at 28-29
(explaining “Elgin . . . clarified . . . that an agency’s
relative level of insight into the merits of a constitutional question is not determinative”). For example,

App.24a
in Elgin the agency deployed its employment law
expertise to resolve “threshold questions” before
considering the constitutionality of the Selective Service
Act. 567 U.S. at 23; see also Tilton, 824 F.3d at 290
(discussing Elgin’s recognition of “those potential
applications of agency expertise to other dimensions
of the administrative proceeding”).
Following Elgin’s lead, our sister circuits have
identified various ways an agency might deploy its
expertise on constitutional questions. The agency
might “resolv[e] accompanying statutory claims that
it routinely considers, and which might fully dispose
of the case in the appellants’ favor.” Tilton, 824 F.3d
at 290 (internal quotation marks omitted). Or an
“agency could moot the need to resolve [a] challenge
to [a statute’s] constitutionality (or any other constitutional question) by finding that he did not commit
the . . . violations of which he stands accused.” Jarkesy,
803 F.3d at 29. Additionally, an agency’s interpretation of the law “in the course of the proceeding
. . . might answer or shed light on” a constitutional
challenge. Id. As the D.C. Circuit observed in Jarkesy,
“there are precious few cases involving interpretation
of statutes authorizing agency action in which our
review is not aided by the agency’s statutory construction.” Id. at 29 (quoting Mitchell v. Christopher,
996 F.2d 375, 379 (D.C. Cir. 1993) (internal quotation marks omitted)).
Following Elgin and our sister circuits, we conclude that the Bank’s constitutional claims did not
fall outside the agency’s expertise. To begin with, the
FDIC could have mooted the Bank’s constitutional
claims by finding the Bank innocent of the statutory
violations it was accused of committing. Elgin, 567

App.25a
U.S. at 23; Jarkesy, 803 F.3d at 29. At a minimum,
the agency’s banking expertise could have shed light
on the Bank’s constitutional claims, which turned
largely on why the agency brought charges and on
how the hearing was conducted. Elgin, 567 U.S. at
22-23; Tilton, 824 F.3d at 29. As it happens, that is
just what occurred. The Board rejected the Bank’s
theory that the FDIC’s investigation was motivated
by age-based animus by reviewing “the ample evidence
in the record showing the legitimate regulatory concerns that prompted each of [the FDIC’s] actions.”
Bank of La., 2016 WL 9050999 at *11 (emphasis
added). Similarly, the Board rejected the Bank’s due
process claims by reviewing the ALJ’s rulings in light
of the substantive issues addressed at the hearing.13
It is thus evident that the agency actually brought its
expertise to bear in resolving the bulk of the Bank’s
constitutional claims.
To be sure, the Bank’s separation-of-powers
challenge to the ALJ does not directly implicate the
agency’s expertise in the way the Bank’s other constitutional claims do. But this is not dispositive
under Elgin. As the D.C. Circuit correctly explained,
13 See id. at *12 (examining whether certain exhibits excluded
by the ALJ were “crucial to [the Bank’s] case or would have
changed the outcome,” and noting that “[n]one of these exhibits
undermine the ALJ’s conclusion that a preponderance of the
evidence shows multiple violations of law and supports the
examiners’ less-than-satisfactory ratings in multiple areas”); id.
(concluding the ALJ’s “sequestration rule” did not violate due
process “[b]ecause the ALJ made clear that the sequestration
rule applied, only to a discussion of Scott’s and other witnesses’
testimony while Scott’s testimony was in progress” and did not
“prevent Scott from discussing strategic matters with the Bank’s
counsel”).

App.26a
in Elgin the Supreme Court “clarified . . . that an
agency’s relative level of insight into the merits of a
constitutional question is not determinative” for purposes of the agency expertise factor. Jarkesy, 803
F.3d at 28; see also, e.g., Hill, 825 F.3d at 1250-51
(because the agency’s decision on statutory claims
could moot constitutional claims, “[w]e are satisfied
that the [agency’s] expertise could be brought to bear
in this way, even if its expertise could offer no added
benefit to the resolution of the constitutional claims
themselves”); Tilton, 824 F.3d at 289 (emphasizing
“that an agency may bring its expertise to bear
indirectly, by resolving accompanying, potentially
dispositive issues in the same proceeding”).
In sum, the agency expertise factor does not
show that “Congress intended to exempt [the Bank’s
constitutional] claims from exclusive review before
[the FDIC] and the [courts of appeal].” Elgin, 567
U.S. at 23. Therefore, this factor also points toward
finding that the district court lacked subject matter
jurisdiction over the Bank’s claims.
IV.
In sum, the district court correctly dismissed the
Bank’s lawsuit without prejudice for lack of subject
matter jurisdiction. We therefore AFFIRM the district
court’s judgment.14

14 The Bank’s motion to supplement the record excerpts, which
was carried with this appeal, is DENIED.

App.27a
ORDER AND REASONS
OF THE DISTRICT COURT
(JANUARY 13, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
________________________
BANK OF LOUISIANA, G. HARRISON SCOTT,
SHARRY SCOTT, and JOHNNY CROW,
v.
FEDERAL DEPOSIT
INSURANCE CORPORATION,
________________________
Civil Action No. 16-13585, Section “F”
Before: Martin L. C. FELDMAN,
United State District Judge
Before the Court is the defendant’s motion to
dismiss pursuant to Rule 12(b)(1) for lack of subject
matter jurisdiction. For the following reasons, the
motion is GRANTED.
Background
This motion to dismiss arises out of the Federal
Deposit Insurance Corporation’s investigation and
charges against the Bank of Louisiana for violations
of agency regulations. In response to the FDIC’s
enforcement proceedings against the Bank, the Bank
and others filed suit in this Court alleging constitu-

App.28a
tional violations against the Bank through the FDIC’s
practices.
The Bank of Louisiana is a small, community
bank founded in New Orleans in 1958 by former
President G. Harrison Scott, James Comiskey, and
Dr. Nicholas Chetta. The Bank provides banking
services to a small, local, and well-known customer
base.
On October 22, 2013, the FDIC filed charges
against Sharry Scott, G. Harrison Scott, and Johnny
Crow (the directors) for violation of Regulation O.
The FDIC alleged that the directors illegally approved
a loan to a director as well as a loan to an executive
officer. The Regulation O proceeding sought an award
of civil penalties of $10,000 from each of the three
directors, as well as court costs and attorneys’ fees of
more than $200,000. The notice of charge alleged
that between October 2009 and November 2011, the
directors caused the bank to engage in federal violations
by providing favorable treatment to bank insiders by
making improper loans and allowing the insiders to
overdraw their accounts on multiple occasions without
collecting overdraft fees. On July 2, 2014, the administrative law judge1 issued a 29-page recommended
decision after full briefing and conducting an evidentiary hearing. The ALJ recommended that each of
the three named directors pay a civil penalty of
$10,000. The plaintiffs waited 90 days to file exceptions
to the recommendation. Although the FDIC’s Uniform
Rules of Practice and Procedure require that a party
file exceptions to a recommended decision within 30
1 The ALJ, who is an FDIC employee, presided over both proceedings against the bank.

App.29a
days, the FDIC Board considered and addressed in
its decision the untimely exceptions. On December
22, 2014, the plaintiffs filed a petition for review of
the FDIC Board’s final decision with the United
States Court of Appeals for the Fifth Circuit. On
September 16, 2015, the plaintiffs filed an unopposed
motion to stay the appeal pending the resolution of
the FDIC’s second enforcement proceeding against
the bank; the Fifth Circuit entered an order staying
the proceeding until the conclusion of the enforcement
action against the bank.2
On November 1, 2013,3 the FDIC filed three
separate cease-and-desist charges against the bank.
The cease and desist proceeding sought three ceaseand-desist orders and an award of civil penalties in
the amount of $540,000. The notice of charges alleged
that the bank was operating in an unsafe and unsound
manner based on inadequate management, deficient
asset quality, deficient earnings, various violations of
law, and compliance violations with respect to the
Bank Secrecy Act, The Electronic Funds Transfer
Act, the Real Estate Settlement Practices Act, the
Truth in Lending Act, the Home Mortgage Disclosure
Act, and the National Flood Insurance Program. This
notice sought an order requiring the bank to cease
and desist from these practices and to pay a civil
penalty in the amount of $500,000 for Bank Secrecy
Act violations. The ALJ conducted a six-day trial in
2 The second enforcement proceeding against the bank has
concluded since the filing of this motion to dismiss.
3 The defendant’s motion states that this notice of charges was
filed on November 4, 2013; however, the plaintiffs’ complaint and
the record indicates this notice was filed on November 1, 2013.

App.30a
March 2015; the parties introduced evidence, crossexamined witnesses, and filed post-hearing and reply
briefs. On May 17, 2016, the ALJ issued a decision,
recommending a $500,000 civil penalty; the bank
filed exceptions to the recommended decision with
the FDIC Board. The Board’s final order affirms the
ALJ’s recommendation and imposes a $500,000 civil
penalty against the bank for Bank Secrecy Act violations and an order to cease and desist for various
statutory and regulatory violations. The plaintiffs have
now filed a timely appeal of that decision with the
Fifth Circuit, with no decision yet.
The plaintiffs filed suit in this Court. The
plaintiffs’ amended complaint asserts four causes of
action: (1) a permanent injunction to stop the FDIC
Board from issuing a final decision in the thenpending enforcement proceeding; (2) a request for
declaratory judgment that the FDIC violated various
statutes and constitutional provisions in conducting
both enforcement proceedings; (3) damages; and (4)
sanctions.4 In support of the constitutional violations, the plaintiffs allege that the bank and the
directors were subject to age discrimination, retaliation, ridicule, and mockery, and were denied procedural
due process rights guaranteed under the United
4 On November 18, 2016, the Board issued its final order in the
cease and desist proceeding. Therefore, the plaintiffs assert that
they abandon their request for injunctive relief to enjoin the cease
and desist proceedings as moot. Additionally, the plaintiffs
abandon their claims for damages because of their ability to
move for sanctions should this Court find it has subject matter
jurisdiction and enter judgment in favor of the plaintiffs.
Therefore, the only claim before the Court for purposes of this
motion to dismiss is the request for declaratory judgment that
the FDIC violated the plaintiffs’ constitutional rights.

App.31a
States Constitution. Specifically, the plaintiffs allege
that an assistant FDIC director embarked on a
vendetta campaign to unseat the bank’s president.
The mission of the alleged vendetta, according to the
plaintiffs, was to remove the chairman and president
of the bank, G. Harrison Scott, because he was too
old. The plaintiffs also allege that the ALJ unconstitutionally kept Scott from conferring with counsel during
an overnight recess at the cease and desist hearing,
in violation of the bank’s constitutional rights to
counsel and to free speech, and was wrongfully
denied the right to make a proffer of evidence. The
plaintiffs assert that this Court has jurisdiction for
the age discrimination and constitutional violations
because without this Court’s intervention, these claims
will escape a meaningful judicial review.
The defendant moves the Court to dismiss this
case for lack of subject matter jurisdiction. In response,
the plaintiffs contend that 12 U.S.C. § 1818(h) and

Free Enterprise Fund v. Public Company Accounting
Oversight Board, 561 U.S. 477 (2010) allow this

Court to exercise subject matter jurisdiction for these
allegedly “wholly collateral” constitutional claims.
The Court now determines whether Congress has
foreclosed its jurisdiction to hear these constitutional
claims.
I.
Motions filed under Rule 12(b)(1) of the Federal
Rules of Civil Procedure allow a party to challenge
the Court’s subject matter jurisdiction. Fed. R. Civ.
P. 12(b)(1). “As a court of limited jurisdiction, a
federal court must affirmatively ascertain subjectmatter jurisdiction before adjudicating a suit. The

App.32a
district court should dismiss where it appears certain
that the plaintiff cannot prove a plausible set of facts
that establish subject-matter jurisdiction.” Venable
v. Louisiana Workers’ Compensation Corp., 740 F.3d
937, 941 (5th Cir. 2014) (citations and internal quotations omitted).
Contrary to a 12(b)(6) motion, the Court may
find a plausible set of facts to support subject matter
jurisdiction by considering any of the following: “(1)
the complaint alone; (2) the complaint supplemented
by undisputed facts evidenced in the record; or (3)
the complaint supplemented by undisputed facts plus
the court’s resolution of disputed facts.” Spotts v.
United States, 613 F.3d 559, 565-66 (5th Cir. 2010)
(citation omitted). “The burden of proof for a Rule 12
(b)(1) motion is on the party asserting jurisdiction.”
Alfonso v. United States, 752 F.3d 622, 625 (5th Cir.
2014) (quoting In re FEMA Trailer Formaldehyde
Prods. Liab. Litig., 646 F.3d 185, 189 (5th Cir. 2011)
(internal citation and quotation marks omitted)).
The 12(b) (1) standard is similar to that applicable
to motions to dismiss under Rule 12(b)(6). See Williams
v. Wynne, 533 F.3d 360, 364-65 n.2 (5th Cir. 2008)
(observing that the Rule 12(b) (1) and Rule 12(b) (6)
standards are similar, but noting that applying the
Rule 12(b)(1) standard permits the Court to consider
a broader range of materials in resolving the motion).
“‘[T]he central issue [in deciding a motion to dismiss]
is whether, in the light most favorable to the plaintiff,
the complaint states a valid claim for relief.’” Gentilello
v. Rege, 627 F.3d 540, 544 (5th Cir. 2010) (citation
omitted).

App.33a
II.
A.

Federal District Courts’ Original Jurisdiction

In general, federal district courts have “original
jurisdiction of all civil actions arising under the Constitution, laws, or treaties of the United States” pursuant to 28 U.S.C. § 1331. However, “Congress may
choose to limit a district court’s jurisdiction over the
actions of a federal administrative agency.” Congress
usually chooses to remove certain claims from a district court’s general jurisdiction to place these claims
into a systematic statutory review scheme. Elgin v.
Dep’t. of Treasury, 132 S.Ct. 2126, 2141 (2012).
“[W]hen Congress creates procedures designed to
permit agency expertise to be brought to bear on
particular problems, those procedures,” which often
include procedures for judicial review of agency decisions, “are to be exclusive.” Free Enter. Fund v. Pub.
Co. Accounting Oversight Bd., 561 U.S. 477, 489
(2010) (internal quotations omitted). However, this
rule is not absolute. See id.
B.

FDIC Jurisdictional Statute

12 U.S.C. § 1818(h)(2) specifically addresses
judicial review of an FDIC final order. Section 1818
(h)(2) provides that:
Any party to any proceeding . . . may obtain
a review of any order . . . by filing in the
court of appeals of the United States for the
circuit in which the home office of the depository institution is located, or in the United
States Court of Appeals for the District of
Columbia Circuit, within thirty days after
the date of service of such order, a written

App.34a
petition praying that the order of the agency
be modified, terminated, or set aside. . . .
Upon the filing of such petition, such court
shall have [exclusive] jurisdiction . . . to affirm,
modify, terminate, or set aside, in whole or
in part, the order of the agency.
(emphasis added). The parties before this Court do
not dispute whether the Court of Appeals has exclusive
jurisdiction to hear challenges to an FDIC final
order. The parties do, however, dispute whether a
district court has jurisdiction to hear age discrimination
and due process violation claims stemming from an
FDIC enforcement proceeding. The issue is whether
these challenges are so related to an agency proceeding
that the challenges fall under the exclusive purview
of the agency with review through the Court of
Appeals. The Court believes it does.
III.
At the current stage in the proceedings, the
plaintiffs seek a declaratory judgment from this
Court and reserve the right to pursue sanctions or
damages if appropriate at a later stage. The defendant
suggests that the first step in determining whether
the Court has jurisdiction is to rely on § 1818(i)(1),
which states that “no court shall have jurisdiction to
affect by injunction or otherwise the issuance or
enforcement of any notice or order . . . .” (emphasis
added). The Fifth Circuit has determined that “injunction or otherwise” encompasses declaratory relief; the
precise relief the plaintiffs seek. See Groos Nat’l
Bank v. Comptroller of Currency, 573 F.2d 889, 895
(5th Cir. 1978). Therefore, the FDIC urges that the
plaintiffs’ request for a declaratory judgment to hold

App.35a
the FDIC’s proceedings unconstitutional would undoubtedly affect the “enforcement” of an order issued
by the FDIC board. It is therefore the FDIC’s position that the plaintiffs’ request is barred by the
statutory language and the Fifth Circuit’s interpretation of that language. The FDIC urges that the
proceedings are final at the agency level; and that
declaring the final orders unconstitutional would
interfere with the “enforcement” of these finals orders.
Holding the proceedings unconstitutional would, the
FDIC correctly submits, affect the enforcement of
FDIC final orders because there would be no final
order to enforce. The Court agrees that, by virtue of
the statute’s clear language, Congress’ intent to preclude district court jurisdiction “was ‘fairly discernable.’”5 Elgin, 132 S.Ct. at 2132 (quoting Thunder
Basin Coal Co. v. Reich, 510 U.S. 200, 207 (1994)).
However, this Court’s inquiry does not end
there. In Free Enterprise the Supreme Court wrote:

5 The plaintiffs make a textual argument that Congress did not
strip federal district courts of jurisdiction. In support, the plaintiffs
rely on 15 U.S.C. § 78y. The Free Enterprise Court interpreted
Section 78y, which states that a person aggrieved by final order
of the Commission . . . may obtain review of the order in the
United States Court of Appeals, to not bar the federal district
court of jurisdiction. However, the Court reached that conclusion
by applying the three-factor test, not merely by interpreting
this section of a statute. Similarly, § 1818(h) states that a party
may obtain a review of any final order by filing in the court of
appeals. The plaintiffs suggest this Court should reach the
same conclusion as Free Enterprise based on the similarity of
the statutes’ wording. Because this textual argument does not in
itself require the Court to find it has jurisdiction, the Court also
considers the factors set forth in Free Enterprise.

App.36a
Generally, when Congress creates procedures designed to permit agency expertise
to be brought to bear on particular problems,
those procedures are to be exclusive. But
[there is a presumption] that Congress does
not intend to limit jurisdiction if a finding of
preclusion would foreclose all meaningful
judicial review; if the suit is wholly collateral
to a statute’s review provisions; and if the
claims are outside the agency’s expertise.

Free Enterprise, 561 U.S. at 489 (internal quotation
marks and citations omitted); see also Thunder Basin,
510 U.S. at 212-13. Notwithstanding the clear text of
the statute, the Court also looks to whether the
plaintiffs’ claims satisfy the three factor Free Enterprise
test, which would trump Congress’ intent for exclusive
jurisdiction within the agency and the Courts of
Appeal for the plaintiffs’ constitutional allegations.
IV.

Free Enterprise Application
A.

Whether a Finding of Preclusion Forecloses All
Meaningful Judicial Review

In Thunder Basin, the statute in that case
tracked language similar to the statute at issue here;
both statutes stated that a petitioner may challenge
adverse decisions in the appropriate court of appeals,
whose jurisdiction shall be exclusive. 12 U.S.C. § 1818
(i)(1); Thunder Basin, 510 U.S. at 208. The Supreme
Court held that the petitioner’s constitutional claim,
though generally “beyond the jurisdiction of administrative agencies,” was not reason to grant the district court subject matter jurisdiction. Thunder Basin,

App.37a
510 U.S. at 215. The body reviewing the constitutional claim, however, was not the agency itself; an
independent commission exercised the power to
adjudicate that agency’s disputes. Id. The Court did
note, however, that even if the reviewing body was
not independent, “the petitioner’s statutory and constitutional claims [could] be meaningfully addressed
in the Court of Appeals.” Id.

Gupta v. S.E.C. held that a district court had

jurisdiction to hear the plaintiff’s equal protection
claim. Gupta v. S.E.C., 796 F. Supp. 2d 503, 514
(S.D.N.Y. 2011). The district court reasoned that the
plaintiff’s equal protection claim did not affect whether
he committed the acts the agency alleged. Id. The
plaintiff sought declaratory and injunctive relief;
however, the jurisdictional statutes in Gupta did not
include the “injunctive or otherwise” bar, such that
declaratory and injunctive relief were barred remedies.
See 15 U.S.C. § 78y; Gupta, 796 F. Supp. 2d at 506.
But see 12 U.S.C. § 1818(i)(1). Therefore, underlying
the court’s strained holding is a finding that a
potential grant of such injunctive relief would not be
contrary to a statutory limitation. See Gupta, 796 F.
Supp. 2d at 506, 514. Gupta is not a helpful guide,
much less precedent for this Court.
The Seventh Circuit has observed that, even if
an agency’s fact finding capability is more limited
than a district court’s, these capabilities are “sufficient
for meaningful judicial review.” Bebo v. S.E.C., 799
F.3d 765, 773 (7th Cir. 2015); see also Hill v. S.E.C.,
825 F.3d 1236, 1249-50 (11th Cir. 2016).
In this case, the plaintiffs contend that without
this Court’s intervention, meaningful judicial review
is foreclosed because the FDIC’s administrative process

App.38a
provides no reasonable mechanism for pursuing such
constitutional claims. The plaintiffs’ claims require
investigation of FDIC personnel practices, and they
argue the discovery that would be necessary to elicit
admissible evidence corroborative of such claims has
not been allowed. Additionally, the plaintiffs note
that the FDIC is inherently conflicted in assessing
such a constitutional claim against itself. This inherent
conflict, the plaintiffs argue, is the precise reason
which makes appealing this constitutional issue to
the Fifth Circuit not a meaningful avenue of relief.
The Court disagrees.
The fact that an agency may potentially have to
review a claim against itself under Congress’ statutory
scheme does not as a matter of law divert jurisdiction
to a federal district court. The Court accepts that the
plaintiffs validly argue there is an inherent conflict
with the process it faces. But Congress has spoken,
the statutory text is straightforward, and the Supreme
Court has agreed that opportunity for review of such
constitutional claims is sufficient through the Court
of Appeals. This Court is not at liberty to rewrite its
authority. That is for Congress.
B.

Whether the Suit Is “Wholly Collateral” to the
Statute’s Review Provisions

Claims are not wholly collateral where “it serves
as the ‘vehicle by which’ a party seeks to prevail in
an administrative proceeding.” Tilton v. S.E.C., 824
F.3d 276, 287 (2d Cir. 2016) (quoting Elgin, 132 S.Ct.
at 2139-40). Without further, concrete guidance from
the Supreme Court, circuit courts interpret this requirement to mean that a constitutional claim is not
wholly collateral when it is “raised in response to,

App.39a
and so is procedurally intertwined with, an administrative proceeding-regardless of the claim’s substantive connection to the initial merits dispute in
the proceeding.” Tilton, 824 F.3d at 287.
The plaintiffs contend that their constitutional
claims are wholly collateral to the FDIC’s proceedings
because they do not seek review of the merits of the
final orders in this Court. Instead, the plaintiffs’
requested relief is for a declaratory judgment that
the enforcement proceedings were unconstitutional.
The Court accepts that the plaintiffs do not
overtly seek a prohibited review of the final administrative orders on the merits. However, if the Court
were to find merit in the plaintiffs’ claims, the
ultimate remedy sought is nevertheless to displace
the final FDIC orders. The effect of such relief is
exactly what Congress prohibits federal district courts
from doing: terminating or setting aside the FDIC
board’s final orders. See 12 U.S.C. § 1818(i)(1).
C.

Whether the Claims Are Outside the Agency’s
Expertise

Where a constitutional claim questions the constitutionality of the agency itself or is so connected to
the work and proceedings of the agency, courts have
been quick to find that agency expertise exists. See
Elgin, 132 S.Ct. at 1240; Thunder Basin, 510 U.S. at
214-15; Jarkesy v. S.E.C., 803 F.3d 9, 28 (D.C. Cir.
2015).
The FDIC contends that the plaintiffs’ constitutional claims are not outside of the FDIC’s expertise.
As evidence, it argues that the FDIC board has
already considered and ruled on the same consti-

App.40a
tutional claims in the context and scope of the
enforcement proceedings.
The plaintiffs counter that their claims easily
satisfy the last Free Enteprise prong because they
are not asking the Court to interpret the Financial
Institution Supervisory Act or review any merits of
the enforcement proceedings. Instead, the plaintiffs
urge their fundamental and constitutional rights
were violated and those issues do not fall within the
expertise of the FDIC. The argument fails.
The plaintiffs do not question the constitutionality or inherent authority of the FDIC. The plaintiffs
do not question the procedures of the FDIC. Instead,
the plaintiffs attack the motives underlying the
FDIC’s decision to initiate the proceedings.6 No court
has seemingly ruled on a similar issue where the
plaintiffs bring equal protection and due process
claims in the context of an FDIC enforcement proceeding. Therefore, this Court has no helpful precedent to
guide it on how broadly or narrowly the Supreme
Court or other courts construe the powers and abilities
of this particular agency. Being left to turn to similar
claims alleged against other agencies, this Court
finds that the agency has the capability to consider
such constitutional claims. Moreover, aid the Court
6 The plaintiffs make serious allegations that should not be
taken lightly. An example of evidence the plaintiffs submit for
the age discrimination claim are communications between FDIC
employees, dated January 29, 2013 at 8:52 a.m. On that date an
FDIC employee states that, “this place will never change until
the old man dies, once you work here, you die here.” There
seems to be no dispute that this statement is referring to G.
Harrison Scott and the Bank of Louisiana. It is troubling and
merits close judicial scrutiny.

App.41a
underscores, those claims can be raised on appropriate
appeal to the Fifth Circuit.7
V.
Accordingly, the plaintiffs fail to carry their
burden to establish that this Court has the authority
to exercise subject matter jurisdiction. Not only does
Congress limit federal district courts’ jurisdiction
under clear statutory law, but Supreme Court precedent on similar constitutional claims against administrative agencies teach that the plaintiffs’ claims do
present circumstances under which district courts
have no statutory authority to exercise jurisdiction.
IT IS ORDERED that the defendant’s motion to
dismiss for lack of subject matter jurisdiction is
hereby GRANTED. The plaintiffs’ claims against the
FDIC are DISMISSED, without prejudice to pursue
them in the Fifth Circuit proceedings.
New Orleans, Louisiana, January 13, 2017.
/s/ Martin L. C. Feldman
United State District Judge

7 The Fifth Circuit has the authority to thoroughly consider the
types of constitutional claims raised by the plaintiffs. The manner
in which the record is built may vary, notably substantially,
from that of the district court. This, however, does not compel a
finding that the plaintiffs’ claims would evade appropriate
consideration and review.

App.42a
JUDGMENT OF THE DISTRICT COURT
(JANUARY 18, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
________________________
BANK OF LOUISIANA, ET AL.,
v.
FEDERAL DEPOSIT
INSURANCE CORPORATION,
________________________
Civil Action No. 16-13585, Section “F” (1)
Before: Martin L. C. FELDMAN,
United State District Judge
For the written reasons of the Court on file herein,
accordingly;
IT IS ORDERED, ADJUDGED AND DECREED
that plaintiffs’ claims are dismissed without prejudice
to pursue them in the Fifth Circuit proceedings.
New Orleans, Louisiana, this 18th day of January,
2017.
/s/ Martin L. C. Feldman
United State District Judge

App.43a
DECISION AND ORDER OF ASSESSMENT OF
CIVIL MONEY PENALTY
(MAY 28, 2019)
FEDERAL DEPOSIT INSURANCE CORPORATION
WASHINGTON, D.C.
________________________
In the Matter of:
BANK OF LOUISIANA,
NEW ORLEANS, LOUISIANA
(Insured State Nonmember Bank)
________________________
FDIC 17-0086k
Before: Robert E. FELDMAN, Executive Secretary,
Federal Deposit Insurance Corporation
I.

Introduction

This matter is before the Board of Directors
(“Board”) of the Federal Deposit Insurance Corporation
(“FDIC”) following issuance of a Recommended Decision
(“Recommended Decision” or “R.D.”) by Administrative
Law Judge C. Richard Miserendino (“ALJ Miserendino”).
On December 11, 2018, ALJ Miserendino recommended
that the Bank of Louisiana (“Bank”), New Orleans,
Louisiana be assessed a civil money penalty (“CMP”)
of $136,100.00 pursuant to section 102(f) of the Flood
Disaster Protection Act of 1973 (“FDPA”), 42 U.S.C.

App.44a
§ 4012a(f).1 For the following reasons, the Board
adopts and affirms the. Recommended Decision and
issues against the Bank an Order to Pay a CMP in
the amount of $136,100.
II.

Statement of the Case

The FDIC initiated this action on May 19, 2017,
when it issued a Notice of Assessment of Civil Money
Penalty, Findings of Fact and Conclusions of Law,
Order to Pay, and Notice of Hearing (“Notice”). The
Notice alleged that the Bank, a federally insured State
nonmember bank, engaged in a pattern or practice of
violating the National Flood Insurance Act of 1968
(“NFIA”), the FDPA, 42 U.S.C. §§ 4001-4129, and
Part 339 of the FDIC Rules and Regulations, 12 C.F.R.
Part 339, which implements the requirements of the
NFIA and FDPA. As a result, the Notice sought a civil
money penalty against the Bank pursuant to section
102(f) of the FDPA, 42 U.S.C. § 4012a(f), and section
8(i) of the Federal Deposit Insurance Act (“FDI Act”),
12 U.S.C. § 1818(i). R.D. 2.
On June 7, 2017, the Bank filed an Answer
(“Answer”) admitting that the Bank is an insured
depository institution subject to the oversight of the
FDIC (Answer ¶¶ 3-7), but denying the majority of
the FDIC’s material allegations. R.D. 2. The Answer
also asserts that the present enforcement action is an
improper attempt to remove G. Harrison Scott (“Scott”)
as the Chairman of the Bank’s board of directors.
1 42 U.S.C. § 4012a(f) authorizes the FDIC to impose civil money
penalties for pattern or practice violations independent of section
8(i) of the Federal Deposit Insurance Act, 12 U.S.C. § 1818(i). R.D.
26 n.18.

App.45a
Answer ¶¶ 25, 31; RD. 2. The Bank alleges that the
real motivation for the FDIC’s action is age discrimination and animosity towards Scott. Answer ¶¶ 25,
31; R.D. 2.
On January 2, 2018, FDIC Enforcement Counsel
(“Enforcement Counsel”) filed a Motion for Summary
Disposition or Partial Summary Disposition. R.D. 3.
Enforcement Counsel’s motion was supported by a 30page memorandum and two sworn declarations accompanied by nearly 300 exhibits. R.D. 8. Three weeks
later, the Bank filed an 8-page Response accompanied
by 3 exhibits. Id. On July 19, 2018, while the motion
was pending, the Board issued an omnibus Resolution
and Order (“Resolution”) reassigning this case from
AU Christopher McNeil to ALJ Miserendino “for a
fresh reconsideration of all prior actions, including
summary dispositions, and for all other purposes
going forward. . . . ” Resolution 1.
On December 11, 2018, ALJ Miserendino issued a
35-page Recommended Decision recommending that the
Bank be ordered to pay a CMP of $136,100. The same
day, ALJ Miserendino certified the record to the Executive Secretary pursuant to 12 C.F.R. § 308.38.
Neither the Bank nor Enforcement Counsel filed
written exceptions to the Recommended Decision.2
Pursuant to 12 C.F.R. § 308.40(c)(2), the Executive
2 On January 8, 2019, the Bank filed a Motion for Interlocutory
Review (“Motion”) challenging the Board’s July 19, 2018 Resolution
by which the Board reassigned the case to ALJ Miserendino.
The Board declines to consider this Motion because it does not
seek review of any interlocutory order of the ALJ and it has
neither the form nor content required for exceptions. See 12
C.F.R. §§ 308.28(a), 308.39.

App.46a
Secretary submitted the record to the Board for final
decision on February 28, 2019.
Upon careful review and consideration of Enforcement Counsel’s motion, memorandum and supporting
declarations and exhibits, the Bank’s response and
its exhibits, and for the reasons stated below, the
Board finds that there is no genuine issue as to any
material fact and that the FDIC is entitled to summary disposition as a matter of law. Because ALJ
Miserendino provided a lengthy, detailed, and wellreasoned opinion with extensive citations to the
record in support of his conclusions, the Board finds
it unnecessary to reiterate in full the contents of the
Recommended Decision. The discussion below, however,
provides a brief overview of the applicable statutes
and regulations and the Bank’s violations as alleged
in the Notice and corroborated by testimonial and
documentary evidence in the record.3
III. Factual Overview
A. Applicable Flood Insurance Statutes and Regulation
“In response to increased flood damage, the
escalating costs of disaster relief for taxpayers, and
the lack of affordable flood insurance, Congress enacted
the National Flood Insurance Act (NFIA) in 1968.”
R.D. 5 (internal citation omitted). The NFIA created
the National Flood Insurance Program (“NFIP”) to
3 The Recommended Decision includes detailed citations to the
voluminous record. In the interest of efficiency and, except
where otherwise noted, the Board cites only to the numbered
pages in the Recommended Decision. When necessary, the Board
cites to the underlying supporting evidentiary documents.

App.47a
provide flood insurance in communities that voluntarily
adopt and enforce flood plain management ordinances
that meet minimum NFIP requirements. The FDPA
made the purchase of flood insurance mandatory for
the protection of property located in Special Flood
Hazard Areas (“SFHA”), as designated by the Federal
Emergency Management Agency (“FEMA”). Section
102(b) of the FDPA requires federal banking regulators
to issue regulations prohibiting institutions under
their supervision from making, increasing, extending,
or renewing any loan secured by improved real estate
or mobile homes in a SFHA where flood insurance is
available under the NFIP, unless the building or mobile
home and any personal property securing the loan are
covered by flood insurance for the term of the loan.
Part 339 of the FDIC Rules and Regulations, 12 C.F.R.
Part 339, implements the requirements of the NFIA
and FDPA for FDIC-supervised banks. R.D. 5-6. In
addition to stating the general prohibition on making
Designated Loans4 unless the collateral is fully covered
by flood insurance, the regulation also imposes certain
other requirements with which banks are required to
comply.
1. SFHA Determination and Form
In determining whether a structure is located, or
will be located in a SFHA for which NFIP flood insurance is available, Section 339.6(a) requires banks to
use a standard flood hazard determination form
developed by the Administrator of FEMA. 12 C.F.R.
§ 339.6(a); R.D. 7. The bank is required to retain
4 A “Designated Loan” is a loan secured by a building or mobile
home that is located or to be located in a SFHA in which flood
insurance is available under the FDI Act. 12 C.F.R. § 339.2.

App.48a
copies of these forms for as long as the bank owns the
loan. 12 C.F.R. § 339.6(b); R.D. 7.
2. Written Notice of SFHA
If the bank determines that property securing a
loan is or will be located in a SFHA, the bank must
provide written notice to the borrower and the servicer,
regardless of whether NFIP flood insurance is available.
12 C.F.R. § 339.9(a). The notice must contain a warning
that the property is or will be located in a SFHA; a
description of the NFIA’ s flood insurance purchase
requirements; a statement, when applicable, that flood
insurance is available under the NFIP and from private
insurers; and a statement on the availability of federal
disaster relief assistance. 12 C.F.R. § 339.9(b)(1)-(6).
Notably, section 339.9(c) requires the bank to provide
the written notice to the borrower within a reasonable
time before the transaction is completed. See also 42
U.S.C. § 4104a(a)(1). In addition, section 339.9(d) requires the bank to keep a record (such as a signed
copy of the notice or a certified mail receipt) of the
borrower’s and servicer’s receipt of the notice for the
period of time that the bank owns the loan. R.D. 7-8.
3. Forced Placement Flood Insurance
If at any time during the term of the loan a bank
or its servicer determines that the collateral has less
flood insurance coverage than required by regulation,
it must notify the borrower in writing that the
borrower is required to obtain the required insurance
at the borrower’s expense in an amount at least equal
to the amount required by section 339.3 for the
remaining term of the loan. 12 C.F.R. § 339.7(a); see
also 42 U.S.C. § 4012a(e)(1). If the borrower has not

App.49a
purchased the necessary flood insurance within 45
days after the notice, then the bank or the servicer
must purchase insurance on the borrower’s behalf. A
bank or servicer may comply with the force placement
requirement by purchasing a NFIP Standard Flood
Insurance Policy or an appropriate private flood
insurance policy in the amount required by section
339.3. See also 42 U.S.C. § 4012a(e)(2); R.D. 8.
B. The Bank’s Compliance History
The Bank is an insured State nonmember bank
subject to FDIC supervision. R.D. 3-4. On November
18, 2013, the FDIC commenced a compliance examination to assess the Bank’s Compliance Management
System (“CMS”) and whether the Bank complied
with various consumer protection laws and regulations. R.D. 10-11. The FDIC found and cited several
violations of Part 339 of the FDIC Rules and Regulations in its 2013 Compliance Report of Examination
(“2013 Compliance ROE”). Id at 11.5 The Bank confirmed each of the flood insurance violations cited in
its response to the ROE. Id.
On June 8, 2015, the FDIC commenced the 2015
Compliance Examination. R.D. 11. The 2015 examin5 For example, the 2013 Compliance ROE cited the Bank for
failure to obtain an adequate amount of flood insurance coverage
for the term of the loan (§ 339.3(a)); failure to notify the borrower
to obtain flood insurance (§ 339.7); failure to maintain a copy of
the completed standard flood hazard determination (§ 339.6(b));
failure to provide a borrower with notice regarding availability
of flood insurance under the FDI Act at origination (§ 339.9(a));
and failure to provide the borrower with a SFHA Notice within a
reasonable time before closing (§ 339.9(c)). Declaration of Senior
Compliance Examiner Helen Johnson (“Johnson Decl.”) ¶ 20
(citing Exhibit 1HJ).

App.50a
ation team’s initial review revealed multiple violations of Part 339 of the FDIC Rules and Regulations,
many of which (e.g., failure to obtain or maintain
flood insurance coverage, failure to obtain a sufficient
amount of flood insurance coverage, failure to properly
notice borrowers of discrepancies in coverage) were
repeats of those cited in the 2013 Compliance ROE.
Indeed, flood insurance violations were cited in the
2015 Compliance ROE, the 2013 Compliance ROE,
and the 2012 Report of Visitation.6 The 2015 examination team made a preliminary determination that
these violations constituted a pattern or practice of
violations. R.D. 14.
The 2015 examination team instructed the Bank
to conduct a file review of all Designated Loans made,
increased, extended, or renewed in the four-year period
prior to the date of the 2015 Compliance Examination.
Id. at 15. The Bank initially resisted, asserting that
it did not have the resources to undertake such a review. Id. Eventually, it agreed to allow the 2015
examination team to perform the file review. Id.
The FDIC examiners remained onsite in the Bank
for approximately four weeks after the examination
concluded to scan the Bank’s loan files to perform an
offsite review. Id. Throughout the offsite file review,
the FDIC gave the Bank an opportunity to supplement
the Flood insurance documentation that was collected
onsite. R.D. 15. After the offsite file review was
completed, in September 2015, the FDIC provided
6 The 2012 Report of Visitation cited the Bank for failing to
obtain flood determinations (§ 339.6(a)), and failing to send
customers a 45-day notification letter prior to force placement of
flood insurance (§ 339.7). Johnson Decl. ¶ 47 (citing Exhibit 9HJ).

App.51a
the Bank with the file review findings for the Bank
to review and to either confirm or refute the findings
with evidentiary support. Id. (citing Johnson Decl.
¶¶ 60-63). The Bank retained an independent consultant to review the FDIC’s findings and to provide a
response. Id. The Bank provided the FDIC a spreadsheet prepared by the consultant noting agreements
or disagreements with the FDIC’s findings as well as
two batches of documents supporting the Bank’s
response. Id.
On April 6, 2016, the 2015 examination team held
an exit meeting with senior Bank management to
discuss the examination findings, the ROE, and the
FDIC’s recommendations. The Bank confirmed each of
the violations cited, and agreed to increase management
oversight of the Bank’s flood insurance compliance
through increased monitoring procedures and more
effective training. Johnson Decl. ¶¶ 49-50; Exhibit
11HJ; see also RD. 14.7
Based on the results of the file review and the
Bank’s response, the FDIC concluded that multiple
flood insurance violations had occurred and that many
were repeat violations. R.D. 15-16.
IV. Analysis
A. The ALJ’S Factual and Legal Findings Are
Fully Supported by the Record
Under 12 C.F.R. § 308.29(a), summary disposition
is appropriate
7 The Recommended Decision mistakenly notes that the exit
meeting took place on August 6, 2015, which was the date of an
earlier findings meeting. Johnson Decl. ¶ 49.

App.52a
if the undisputed pleaded facts, admissions,
affidavits, stipulations, documentary evidence,
matters as to which official notice may be
taken, and any other evidentiary materials
properly submitted in connection with a
motion for summary disposition show that:
(1) there is no genuine issue as to any
material fact; and (2) the moving party is
entitled to a decision in its favor as a matter
of law.

Id. The standard for summary disposition is similar

to that for summary judgment under Rule 56 of the
Federal Rules of Civil Procedure. See Matter of
Cirino, FDIC-99-011e, 2000 WL 1131919, at *23 (May
10, 2000); see also Scott v. FDIC, 684 F. App’x 391,
394 (5th Cir. 2017) (citing Abbott v. Equity Grp., Inc.,
2 F.3d 613, 618 (5th Cir. 1993)) (articulating the
summary judgment standard), cert. denied, 138 S. Ct.
1261 (2018).
“The movant has the initial burden of demonstrating the absence of material fact issues.” Abbott,
2 F.3d at 619 (citation omitted). To avoid summary
judgment, the nonmovant must adduce evidence which
creates a material fact issue concerning each of the
essential elements of its case for which it will bear
the burden of proof at trial. “[A] dispute about a
material fact is ‘genuine’ . . . if the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.” Id. (citing Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986)). “We resolve all
factual inferences in favor of the nonmovant.” Id. (citation omitted). Unsubstantiated assertions are not
competent summary judgment evidence. Id. (citation
omitted).

App.53a
The Recommended Decision offers extensive
support for its conclusions that there is no genuine
issue of material fact. R.D. 16-22. As ALT Miserendino
lays out in the Recommended Decision, the FDIC
provided voluminous, unrebutted evidence that the
Bank regularly and repeatedly violated various flood
insurance statutes and regulations. The Bank, in turn,
offered unsupported denials and conclusory statements
that the violations were mere mistakes. Having
reviewed the record, the Board agrees with the ALJ
that summary disposition is appropriate as a matter
of law and a CMP is warranted.
1. Failure to Obtain Required Flood Insurance Coverage
The record supports ALJ Miserendino’s conclusion
that, in 26 instances, the Bank made, increased, extended, or renewed loans without flood insurance
coverage for the collateral being in place at or before
loan origination, in violation of section 102(b)(1) of
the FDPA, 42 U.S.C. § 4012a(b)(1), and section 339.3(a)
of the FDIC Rules and Regulations, 12 C.F.R.
§ 339.3(a). R.D. 16. The Bank submitted no evidence
to the contrary. R.D. 17. Rather, some of the Bank’s
exhibits concede that, in several cases, flood insurance
was acquired after origination. Id. The FDPA and
section 339.3(a) are clear that flood insurance coverage
must be obtained at or before loan origination.
2. Failure to Maintain Full Flood Insurance
Coverage for the Term of the Loan
The record supports ALJ Miserendino’s conclusion
that in at least 14 instances the bank failed to maintain
full flood insurance for the loan’s term in an amount

App.54a
at least equal to the outstanding principal balance or
the maximum limit of coverage in violation of section
102(b)(1) of the FDPA, 42 U.S.C. § 4012a(b)(1) and
section 339.3(a) of the FDIC Rules and Regulations,
12 C.F.R. § 339.3(a). R.D. 17-18. In addition to those
deficiencies, in 11 of those 14 instances, the Bank
failed to force place flood insurance within 45 days
after notification of insufficient coverage to the borrower in violation of section 102(e)(2), 42 U.S.C. § 4012a
(e)(2) and section 339.7 of the FDIC Rules and Regulations, 12 C.F.R. § 339.7. R.D. 17-18.8 Again, the Bank
did not dispute that flood insurance coverage was not
maintained for the term of these loans, and it presented no contradicting evidence. Id at 18.
3. Failure to Obtain a Sufficient Amount of
Flood Insurance Coverage
The record also supports the ALJ’s finding that in
20 instances the Bank failed to ensure that collateral
securing loans had a sufficient amount of flood insurance coverage, in violation of section 102(b)(1) of the
FDPA, 42 U.S.C. § 4012a(b)(1), and section 339.3(a) of
the FDIC Rules. And Regulations, 12 C.F.R. § 339.3
(a). R.D. 18-19. The Bank did not dispute that the
amount of flood insurance coverage was insufficient in
these instances and, again, presented no contradicting evidence. Id at 19.

8 See infra p.10 (detailing instances in which the Bank failed to
provide the preliminary notice required under section 102(e)(1)).

App.55a
4. Failure to Notify the Borrower of ForcePlace Flood Insurance Coverage
The Board agrees with Ali Miserendino that in
36 instances, where flood insurance was insufficient
or lapsed, the Bank failed to send force place insurance
notices to borrowers, in violation of section 102(e)(1)
of the FDPA, 42 U.S.C. § 4012a(e)(1), and section
339.7 of the FDIC Rules and Regulations, 12 C.F.R.
§ 339.7. R.D. 19-20. The Bank did not dispute that it
failed to provide the required notices or submit any
evidence to the contrary. Id. at 20.
5. Failure to Provide Borrower with SFHA
Notice
The record further shows in 40 instances, the Bank
made, increased, extended, or renewed loans without
mailing or delivering the SFHA notice to the borrower,
in violation of section 1364(a)(1) of the NFIA, 42
U.S.C. § 4104a(a)(1), and section 339.9(a) of the FDIC
Rules and Regulations, 12 C.F.R. § 339.9(a). RD. 2021. The Bank raised no material issues of fact and
submitted no evidence to dispute these violations. Id.
at 21.
6. Failure to Provide Borrower with SFHA
Notice within a Reasonable Time before
Completion of the Transaction
Finally, the record reflects that in 60 instances,
the Bank failed to mail or deliver the required SFHA
Notice to the borrower within a reasonable time before
the completion of the transaction, in violation of section 1364(a)(1) of the NFIA, 42 U.S.C. § 4104a(a)(1),
and section 339.9(c) of the FDIC Rules and Regulations,
12 C.F.R. § 339.9(c). R.D. 21-22. The Bank did not

App.56a
assert any material issues of fact in dispute nor provide any evidence to dispute these violations. Id. at
22.
B. The CMP Assessment is Appropriate
Under Section 102(f) of the FDPA, 42 U.S.C.
§ 4012a(f), the FDIC is required to assess a CMP
against any institution that it finds to have engaged
in a “pattern or practice” of violations of the FDPA
and its implementing regulations involving the making,
increasing, extending or renewing loans in violation
of Part 339 and 42 U.S.C. § 4012a(b), the notice
requirements of 42 U.S.C. § 4104a, or the notice of
force placement requirements of 42 U.S.C. § 4012a(e).
The Board agrees with ALJ Miserendino’s finding that
the Bank engaged in a “pattern or practice” of violations
of the FDPA and its implementing regulations warranting a CMP. For example, the record shows that the
Respondent committed multiple violations of 42 U.S.C.
§ 4012a(b)(1) and section 339.3(a), 42 U.S.C. § 4012a
(e)(1) and section 339.7, 42 U.S.C. § 4104(a)(a)(1) and
sections 339.9(a) and 339.9(c). The violations took
place over an extended period of time dating as far
back as the 2012 Report of Visitation. The violations
were neither isolated nor unrelated and the total
number was significant in comparison to the total
number of applicable transactions. Moreover, the
conduct resulted from a common cause within the
Bank’s control and was grounded in an established
practice, namely, the Bank board’s and management’s failure to oversee flood insurance policies,
processes, and procedures. See R.D. 23-25.
ALJ Miserendino recommended a CMP of
$136,100. R.D. 22-31. The FDPA states that a lending

App.57a
institution found to have a pattern or practice of committing flood insurance violations may be assessed a
penalty not to exceed $2,133 per violation. 42 U.S.C.
§ 4012a(f); Adjusting Civil Money Penalties for Inflation, 83 Fed. Reg. 1293-01, 1294 (Jan. 11, 2018). As
noted by the Assistant Regional Director for Compliance, the 2015 Compliance Examination cited the
violations as Level 2/Medium Severity. Declaration of
Assistant Regional Dir. for Compliance G. Chris
Finnegan (“Finnegan Decl.) ¶ 47. The violations exposed
the Bank to potential vulnerability, resulted in a
deficient CMS, and were likely to recur given an
inexperienced staff, which lacked adequate training
to perform effective oversight. Id. The Board generally
gives deference to examiner’s assessments, and the
Bank has provided no contrary evidence that would
give the Board reason to question the examiner’s
judgment here. See Sunshine State Bank v. FDIC, 783
F.2d 1580, 1583 (11th Cir. 1986) (“Th[e] exercise of
informed judgment on the part of commissioned examiners is entitled to deference, and should not be
disregarded in the absence of compelling evidence
that it is without rational basis.”). Consistent with
the FDIC’s normal policies and procedures regarding
the assessment of flood insurance civil money penalties,
penalties of $401 to $1000 per violation were proposed,
totaling $136,100, which is well below the maximum
penalty allowed.9 Although the Bank argued in its
9 Civil money penalties of $1,000 per violation were proposed
where the violation was substantive in nature, meaning flood
insurance was not obtained, not maintained, or not obtained or
maintained in a sufficient amount, and the violation exposed
the Bank and the borrower to potentially significant monetary
harm in the event of a flood. R.D. 28-29. Civil money penalties
of $401 per violation were proposed where the violation involved

App.58a
Response that the CMP was disproportionately high
and ALJ Miserendino should take mitigating factors
into account, the Bank submitted no evidence showing
that it had taken mitigating measures and showing
its effect. RD. 24. Accordingly, the Board agrees with
ALJ Miserendino that the evidence in the record fully
supports a CMP for $136,100.
V.

The Bank Has Waived Its Opportunity to File
Exceptions

On December 11, 2018, ALJ Miserendino issued
the Recommended Decision and certified the record
in this matter to the Executive Secretary. 12 C.F.R.
§ 308.38. Pursuant to 12 C.F.R. § 308.39(b), the Bank
waived its opportunity to file written exceptions
within 30 days after the service of the Recommended
Decision.10
VI. Conclusion
After a thorough review of the record in this proceeding, and for the reasons set forth previously, the
Board finds that a CMP is warranted against the
Bank. The record clearly shows that the Bank was
engaged in a pattern or practice of committing regular
and repeated violations of the NFIA, FDPA, and Part
339 of the FDIC Rules and Regulations for an extended
a failure to provide a SFHA Notice to the borrower or a failure
to provide a timely SFHA Notice to the borrower. Id. at 30.
10 As previously discussed, supra n.2, to the extent the Bank
intended its Motion for Interlocutory Review to serve as
exceptions, the Board declines to consider it because it identifies
no specific objections to the Recommended Decision and does not
satisfy the form or content requirements for exceptions in the
FDIC’s Rules. 12 C.F.R. § 308.39.

App.59a
period of time. Based on the foregoing, the Board
affirms the Recommended Decision, adopts the findings
of fact and conclusions of law therein, and issues the
following CMP.
ORDER TO PAY CIVIL MONEY PENALTY
On May 19, 2017, the Federal Deposit Insurance
Corporation (“FDIC”) issued a Notice of Assessment
of Civil Money Penalty (“Notice”) against the Bank of
Louisiana, New Orleans, Louisiana. The Respondent
timely filed an Answer and Request for a Hearing.
On January 2, 2018, the FDIC filed a Motion for
Summary Disposition or Partial Summary Disposition.
On January 22, 2018, the Respondent filed its Response.
Having considered the evidence submitted in
connection with the Motion for Summary Disposition
or Partial Summary Disposition, the arguments of both
parties, and the Recommended Decision issued by the
presiding administrative law judge (“ALJ”),
Pursuant to section 102(f) of the Flood Disaster
Protection Act of 1973, 42 U.S.C. § 4012a(f):
IT IS HEREBY ORDERED THAT, Respondent,
Bank of Louisiana, be assessed a civil money penalty
of $136,100.
Remittance of the civil money penalty shall be
payable to the Treasury of the United States and
delivered to the Executive Secretary of the FDIC,
Washington, D.C.
This ORDER will become effective thirty (30)
days from the date of its issuance.
The provisions of this ORDER will remain effective and in force except in the event that, and until

App.60a
such time as, any provision of this ORDER shall have
been modified, terminated, suspended, or set aside
by the FDIC.
IT IS FURTHER ORDERED that copies of this
Decision and Order shall be served on Respondent Bank
of Louisiana, FDIC Enforcement Counsel, the ALJ,
and the Louisiana Office of Financial Institutions.
IT IS SO ORDERED.
Dated at Washington, D.C. this 28th day of May,
2019.
/s/ Robert E. Feldman
Executive Secretary
Federal Deposit Insurance Corporation

App.61a
OPINION OF THE SUPREME COURT IN

ANTHONY PERRY v. MERIT SYSTEMS
PROTECTION BOARD
(JUNE 23, 2017)

SUPREME COURT OF THE UNITED STATES
________________________
ANTHONY W. PERRY,

Petitioner,
v.
MERIT SYSTEMS PROTECTION BOARD.
________________________
No. 16-399
On Writ of Certiorari to the United States Court of
Appeals for the District of Columbia Circuit
Before: Justice GINSBURG
JUSTICE GINSBURG:
This case concerns the proper forum for judicial
review when a federal employee complains of a serious
adverse employment action taken against him, one
falling within the compass of the Civil Service Reform
Act of 1978 (CSRA), 5 U.S.C. § 1101 et seq., and
attributes the action, in whole or in part, to bias
based on race, gender, age, or disability, in violation
of federal antidiscrimination laws. We refer to complaints of that order, descriptively, as “mixed cases.”

App.62a
In the CSRA, Congress created the Merit Systems
Protection Board (MSPB or Board) to review certain
serious personnel actions against federal employees.
If an employee asserts rights under the CSRA only,
MSPB decisions, all agree, are subject to judicial
review exclusively in the Federal Circuit. § 7703(b)(1).
If the employee asserts no civil-service rights, invoking
only federal antidiscrimination law, the proper forum
for judicial review, again all agree, is a federal district courts; see Kloeckner v. Solis, 568 U.S. 41, 46
(2012); the Federal Circuit, while empowered to
review MSPB decisions on civil-service claims, § 7703
(b)(1)(A), lacks authority over claims arising under
antidiscrimination laws, see § 7703(c).
When a complaint presents a mixed case, and
the MSPB dismisses it, must the employee resort to
the Federal Circuit for review of any civil-service
issue, reserving claims under federal antidiscrimination law for discrete district court adjudication? If the
MSPB dismisses a mixed case on the merits, the
parties agree, review authority lies in district court,
not in the Federal Circuit. In Kloeckner, 568 U.S., at
50, 56, we held, the proper review forum is also the
district court when the MSPB dismisses a mixed case
on procedural grounds, in Kloeckner itself, failure to
meet a deadline for Board review set by the MSPB.
We hold today that the review route remains the
same when the MSPB types its dismissal of a mixed
case as “jurisdictional.” As in Kloeckner, we are
mindful that review rights should be read not to
protract proceedings, increase costs, and stymie
employees,1 but to secure expeditious resolution of
1 Many CSRA claimants proceed pro se. See MSPB, Congressional
Budget Justification FY 2017, p. 14 (2016) (“Generally, at least

App.63a
the claims employees present. See Elgin v. Department of Treasury, 567 U.S. 1, 15 (2012) (emphasizing
need for “clear guidance about the proper forum for
[an] employee’s [CSRA] claims”). Cf. Fed. Rule Civ.
Proc. 1.
I
A
The CSRA “establishes a framework for evaluating
personnel actions taken against federal employees.”
Kloeckner v. Solis, 568 U.S. 41, 44 (2012). For
“particularly serious” actions, “for example, a removal
from employment or a reduction in grade or pay,”
“the affected employee has a right to appeal the
agency’s decision to the MSPB.” Ibid. (citing §§ 1204,
7512, 7701). Such an appeal may present a civilservice claim only. Typically, the employee may allege
that “the agency had insufficient cause for taking the
action under the CSRA.” Id., at 44. An appeal to the
MSPB, however, may also complain of adverse action
taken, in whole or in part, because of discrimination
prohibited by another federal statute, for example,
Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000e et seq., or the Age Discrimination in Employment Act of 1967, 29 U.S.C. § 621 et seq. See 5 U.S.C.
§ 7702(a)(1); Kloeckner, 568 U.S., at 44.
In Kloeckner, we explained, “[w]hen an employee
complains of a personnel action serious enough to
appeal to the MSPB and alleges that the action was
based on discrimination, she is said (by pertinent
half or more of the appeals filed with the [MSPB] are from pro

se appellants . . . .”).

App.64a
regulation) to have brought a ‘mixed case.’” Ibid.
(quoting 29 C.F.R. § 1614.302 (2012)). See also § 1614.
302(a)(2) (2016) (defining “mixed case appeal” as one
in which an employee “alleges that an appealable
agency action was effected, in whole or in part,
because of discrimination”). For mixed cases, “[t]he
CSR and regulations of the MSPB and Equal Employment Opportunity Commission (EEOC) set out special
procedures . . . different from those used when the
employee either challenges a serious personnel action
under the CSRA alone or attacks a less serious action
as discriminatory.” Kloeckner, 568 U.S., at 44-45.
As Kloeckner detailed, the CSRA provides diverse
procedural routes for an employee’s pursuit of a
mixed case. The employee “may first file a discrimination complaint with the agency itself,” in the
agency’s equal employment opportunity (EEO) office,
“much as an employee challenging a personnel practice
not appealable to the MSPB could do.” Id., at 45
(citing 5 C.F.R. § 1201.154(a) (2012); 29 C.F.R. § 1614.
302(b) (2012)); see § 7702(a)(2). “If the agency [EEO
office] decides against her, the employee may then
either take the matter to the MSPB or bypass further
administrative review by suing the agency in district
court.” Kloeckner, 568 U.S., at 45 (citing 5 C.F.R.
§ 1201.154(b); 29 C.F.R. § 1614.302(d)(1)(i)); see
§ 7702(a)(2). “Alternatively, the employee may initiate
the process by bringing her case directly to the
MSPB, forgoing the agency’s own system for evaluating
discrimination charges.” Kloeckner, 568 U.S., at 45
(citing 5 C.F.R. § 1201.154(a); 29 C.F.R. § 1614.302
(b)); see § 7702(a)(1).
Section 7702 prescribes appellate proceedings in
actions involving discrimination. Defining the MSPB’s

App.65a
jurisdiction in mixed-case appeals that bypass an
agency’s EEO office, § 7702(a)(1) states in relevant
part:
“[I]n the case of any employee . . . who—
“(A) has been affected by an action which the
employee . . . may appeal to the [MSPB], and
“(B) alleges that a basis for the action was discrimination prohibited by [specified antidiscrimination statutes], . . .
“the Board shall, within 120 days of the
filing of the appeal, decide both the issue of
discrimination and the appealable action in
accordance with the Board’s appellate procedures . . . .”2
Section 7702(a)(2) similarly authorizes a mixed-case
appeal to the MSPB from an agency EEO office’s
decision. Then, “[i]f the MSPB upholds the personnel
action (whether in the first instance or after the
agency has done so), the employee again has a choice:
She may request additional administrative process,
this time with the EEOC, or else she may seek judicial
review.” Kloeckner, 568 U.S., at 45 (citing § 7702(a)
(3), (b); 5 C.F.R. § 1201.161; 29 C.F.R. § 1614.303).
Section 7703(b) designates the proper forum for
judicial review of MSPB decisions. Section 7703(b)(1)(A)
provides the general rule: “[A] petition to review a
. . . final decision of the Board shall be filed in the
2 If the MSPB fails to render a “judicially reviewable action”
within 120 days, an employee may, “at any time after . . . the
120th day,” “file a civil action [in district court] to the same
extent and in the same manner as provided in” the federal
antidiscrimination laws invoked by the employee. § 7702(e)(1).

App.66a
United States Court of Appeals for the Federal
Circuit.” Section 7703(b)(2) states the exception here
relevant, governing “[cases of discrimination subject
to the provisions of [§]7702.” See Kloeckner, 568 U.S.,
at 46 (“The ‘cases of discrimination’ in § 7703(b)(2)’s
exception . . . are mixed cases, in which an employee
challenges as discriminatory a personnel action appealable to the MSPB.”). Such cases “shall be filed under
[the enforcement sections of Title VII of the Civil
Rights Act of 1964, the Age Discrimination in Employment Act, and the Fair Labor Standards Act of 1938,
29 U.S.C. § 201 et seq.], as applicable.” § 7703(b)(2).
Those enforcement provisions “all authorize suit in
federal district court.” Kloeckner, 568 U.S., at 46
(citing, inter alia, 42 U.S.C. §§ 2000e-16(c), 2000e-5
(f); 29 U.S.C. § 633a(c); § 216(b)). Thus, if the MSPB
decides against the employee on the merits of a
mixed cased, the statute instructs her to seek review
in federal district court under the enforcement provision of the relevant antidiscrimination laws. § 7703
(b)(2); see Kloeckner, 568 U.S., at 56, n. 4.3
Federal district court is also the proper forum
for judicial review, we held in Kloeckner, when the
3 Our decision in Kloeckner v. Solis, 568 U.S. 41 (2012), did not
merely assume that the civil-service component of mixed cases
travels to district court. See id., at 56, n. 4 (“If the MSPB rejects
on the merits a complaint alleging that an agency violated the
CSRA as well as an antidiscrimination law, the suit will come to
district court for a decision on both questions.” (emphasis
added)). But see post, at 9-10. Characteristic of “mixed cases,”
the employee in Kloeckner complained of adverse action taken,
at least in part, because of discrimination. See 568 U.S., at 47.
The Board dismissed that case, not for any flaw under
antidiscrimination law, but because the employee missed a
deadline set by the MSPB. See id., at 47-48.

App.67a
MSPB dismisses a mixed case on procedural grounds.
Id., at 50, 56. We rested that conclusion on this
syllogism: “Under § 7703(b)(2), ‘cases of discrimination
subject to [§ 7702]’ shall be filed in district court.” Id.,
at 50 (alteration in original). Further, “[u]nder § 7702
(a)(1), [mixed cases qualify as] ‘cases of discrimination
subject to [§ 7702].’” Ibid. (third alteration in original).
Thus, “mixed cases shall be filed in district court.”
Ibid. That syllogism, we held, holds true whether the
dismissal rests on procedural grounds or on the
merits, for “nowhere in the [CSRA’s] provisions on
judicial review” is a distinction drawn between MSPB
merits decisions and procedural rulings. Id., at 51.
The instant case presents this question: Where
does an employee seek judicial review when the MSPB
dismisses her civil-service case alleging discrimination
neither on the merits nor on a procedural ground, but
for lack of jurisdiction?
B
Anthony Perry worked at the U.S. Census Bureau
until 2012. 829 F.3d 760, 762 (CADC 2016). In 2011,
Perry received notice that he would be terminated
because of spotty attendance. Ibid. Later that year,
Perry and the Bureau reached a settlement in which
Perry agreed to a 30-day suspension and early retirement. Ibid. The agreement required Perry to dismiss
discrimination claims he had separately filed with
the EEOC. Ibid.
After retiring, Perry appealed his suspension
and retirement to the MSPB. Ibid. He alleged discrimination on grounds of race, age, and disability, as
well as retaliation by the Bureaus ford his prior
discrimination complaints. Ibid. The settlement, he

App.68a
maintained, did not stand in the way, because the
Bureau coerced him into signing it. Ibid.
An MSPB administrative law judge (ALJ) eventually determined that Perry had failed to prove that
the settlement was coerced. Perry v. Department of
Commerce, No. DC-0752-12-0486-B-1 etc. (Dec. 23,
2013) (initial decision), App. to Pet. for Cert. 32a, 47a.
Presuming Perry’s retirement to be voluntary, the AL
dismissed his case. Id., at 33a, 47a. Voluntary actions
are not appealable to the MSPB, the ALJ observed,
hence, the AL concluded, the Board lacked jurisdiction to entertain Perry’s claims. Id., at 51a.
The MSPB affirmed the ALJ’s decision. See
Perry v. Department of Commerce, 2014 WL 5358308,
*1 (Aug. 6, 2014) (final order). The settlement agreement, the Board recounted, provided that Perry
would waive his Board appeal rights with respect to
his suspension and retirement. Ibid. Because Perry
did not prove that the agreement was involuntary,
the Board determined (in accord with the ALJ) that
his separation should be deemed voluntary, hence
not an adverse action subject to the Board’s jurisdiction under § 7702(a)(1). Id., at *3-*4. If dissatisfied
with the MSPB’s ruling, the Board stated in its decision, Perry could seek judicial review in the Federal
Circuit. Id., at *4.
Perry instead filed a pro se petition for review in
the D.C. Circuit. 829 F.3d, at 763. The court ordered
jurisdictional briefing and appointed counsel to argue
for Perry. Ibid. By the time the court heard argument,
the parties had agreed that the D.C. Circuit lacked
jurisdiction, but disagreed on whether the proper
forum for judicial review was the Federal Circuit, as

App.69a
the Government contended, or federal district court,
as Perry maintained. Ibid.
The D.C. Circuit held that the Federal Circuit
had jurisdiction over Perry’s petition and transferred
his case to that court under 28 U.S.C. § 1631. 829
F.3d, at 763. The court’s disposition was precedentbound: In a prior decision, Powell v. Department of
Defense, 158 F. 3d 597, 598 (1998), the D.C. Circuit
had held that the Federal Circuit is the proper forum
for judicial review of MSPB decisions dismissing
mixed cases “on procedural or threshold grounds.”
See 829 F.3d, at 764, 767-768. Notably, Powell ranked
as a “procedural or threshold matter” “the Board’s
view of its jurisdiction.” 158 F.3d, at 599 (internal
quotation marks omitted).
The D.C. Circuit rejected Perry’s argument that
Powell was undermined by this Court’s intervening
decision in Kloeckner, which held MSPB procedural
dispositions of mixed cases reviewable in district
court. 829 F.3d, at 764-768. Kloeckner, the D.C.
Circuit observed, repeatedly tied its decision to dismissals on “procedural grounds,” 568 U.S., at 44, 46,
49, 52, 54, 55. See 829 F.3d, at 765. Jurisdictional
dismissals differ from procedural dismissals, the D.C.
Circuit concluded, given the CSRA’s reference to
mixed cases as those “which the employee . . . may
appeal to the [MSPB].” Id., at 766-767 (quoting § 7702
(a)(1)(A); emphasis added). A jurisdictional dismissal,
the court said, rests on the Board’s determination
that the employee may not appeal his case to the
MSPB. Id., at 766-767. In contrast, a dismissal on
procedural grounds, e.g., untimely resort to the MSPB,
leaves the employee still “affected by an action which

App.70a
[she] may appeal to the MSPB.” Ibid. (quoting § 7702
(a)(1)(A); alteration in original).
We granted certiorari to review the D.C. Circuit’s
decision, 580 U.S.___ (2017), which accords with the
Federal Circuit’s decision in Conforto v. Merit Systems
Protection Bd., 713 F.3d 1111 (2013).
II
Federal employees, the Government acknowledges,
have a right to pursue claims of discrimination in
violation of federal law in federal district court. Nor
is there any doubt that the Federal Circuit lacks
authority to adjudicate such claims. See § 7703(c)
(preserving “right to have the facts subject to trial de
novo by the reviewing court” in any “case of discrimination” brought under § 7703(b)(2)). The sole
question here disputed: What procedural route may
an employee in Perry’s situation take to gain judicial
review of the MSPB’s jurisdictional disposition of a
complaint that alleges adverse action taken under
the CSRA in whole or in part due to discrimination
proscribed by federal law?
The Government argues, and the dissent agrees,
that employees, situated as Perry is, must split their
claims, appealing MSPB nonappealability rulings to
the Federal Circuit while repairing to the district
court for adjudication of their discrimination claims.
As Perry sees it, one stop is all he need make. Exclusively competent to adjudicate “[cases of discrimination,” § 7703(b)(2), the district court alone can resolve
his entire complaint, Perry urges; the CSRA, he
maintains, forces no bifurcation of his case.

App.71a
Section 7702(a)(1), the Government contends,
marks a case as mixed only if the employee “has
been affected by an action which the employee
. . . may appeal to the [MSPB].” Brief for Respondent
15, 17-19, 21. An MSPB finding of nonappealability
removes a case from that category, the Government
asserts, and hence, from the purview of “[c]ases of
discrimination” described in § 7703(b)(2). Id., at 21.
Only this reading of the CSRA’s provisions on judicial
review—one ordering Federal Circuit review of
any and all MSPB appealability determinations—the
Government maintains, can ensure nationwide uniformity in answering questions arising under the
CSRA. Id., at 26-32.
Perry emphasizes in response that § 7702(a)(1)
(A)’s language, delineating cases in which an employee
“has been affected by an action which the employee
. . . may appeal to the [MSPB],” is not confined to
cases an employee may successfully appeal to the
Board. Brief for Petitioner 19. The MSPB’s adverse
ruling on the merits of his claim that the settlement
was coerced, Perry argues, “did not retroactively
divest the MSPB of jurisdiction to render that decision.” Id., at 21. The key consideration, according to
Perry, is not what the MSPB determined about appealability; it is instead the nature of an employee’s claim
that he had been “affected by an action [appealable]
to the [MSPB]” (here, suspension for more than 14
days and involuntary removal, see § 7512(1), (2)). See
id., at 11, 23-24. Perry draws support for this argument from our recognition that “a party [may] establish
jurisdiction at the outset of a case by means of a nonfrivolous assertion of jurisdictional elements,” Jerome
B. Grubart, Inc. v. Great Lakes Dredge & Dock Co.,

App.72a
513 U.S. 527, 537 (1995). See Brief for Petitioner 2122.
Perry, we hold, advances the more sensible
reading of the statutory prescriptions. The Government’s procedure-jurisdiction distinction, we conclude,
is no more tenable than “the merits-procedure distinction” we rejected in Kloeckner, 568 U.S., at 51.
A
As just noted, a nonfrivolous allegation of jurisdiction generally suffices to establish jurisdiction
upon initiation of a case. See Jerome B. Grubart,
Inc., 513 U.S., at 537. See also Bell v. Hood, 327 U.S.
678, 682-683 (1946) (To invoke federal-question jurisdiction, allegations in a complaint must simply be
more than “insubstantial or frivolous,” and “[i]f the
court does later exercise its jurisdiction to determine
that the allegations in the complaint do not state a
ground for relief, then dismissal of the case would be
on the merits, not for want of jurisdiction.”). So too
here: whether an employee “has been affected by an
action which [she] may appeal to the [MSPB],” § 7702
(a)(1)(A), turns on her well-pleaded allegations. Kloeckner, EEOC regulations, and Courts of Appeals’ decisions are corroborative.
We announced a clear rule in Kloeckner: “[Mixed
cases shall be filed in district court.” 568 U.S., at 50.
An employee brings a mixed case, we explained,
when she “complains of a personnel action serious
enough to appeal to the MSPB,” e.g., suspension for
more than 14 days, § 7512(2), “and alleges that the
action was based on discrimination.” Id., at 44 (emphasis deleted). The key to district court review, we
said, was the employee’s “clai[m] that an agency

App.73a
action appealable to the MSPB violates an antidiscrimination statute listed in § 7702(a)(1).” Id., at
56 (emphasis added).
EEOC regulations, see supra, at 3, are in accord:
The defining feature of a “mixed case appeal,” those
regulations instruct, is the employee’s “alleg[ation]
that an appealable agency action was effected, in
whole or in part, because of discrimination.” 29
C.F.R. § 1614.302(a)(2) (2016) (emphasis added).
Several Courts of Appeals have similarly described
mixed-case appeals as those alleging an adverse
action subject to MSPB jurisdiction taken, in whole
or in part, because of unlawful discrimination. See,
e.g., Downey v. Runyon, 160 F.3d 139, 143 (CA2
1998) (“Mixed appeals to the MSPB are those appeals
alleging an appealable action affected in whole or in
part by prohibited discrimination.” (emphasis added));
Powell, 158 F.3d, at 597 (defining mixed-case appeal
as “an appeal alleging both a Board-jurisdictional
agency action and a claim of unlawful discrimination”
(emphasis added)). See also Conforto, 713 F.3d, at
1126-1127, n. 5 (Dyk, J., dissenting).4
Because Perry “complain[ed] of a personnel action
serious enough to appeal to the MSPB” (in his case, a
30-day suspension and involuntary removal, see supra,
at 6; § 7512(1), (2)) and “allege[d] that the [personnel]
action was based on discrimination,” he brought a
4 Our interpretation is also consistent with another CSRA
provision, § 7513(d), which provides that “[a]n employee against
whom an action is taken under this section is entitled to appeal
to the . . . Board.” Because the “entitle[ment] to appeal” conferred
in § 7513(d) must be determined before an appeal is filed, such
a right cannot depend on the outcome of the appeal.

App.74a
mixed case. Kloeckner, 568 U.S., at 44.5 Judicial review
of such a case lies in district court. Id., at 50, 56.
B
The Government rests heavily on a distinction
between MSPB merits and procedural decisions, on
the one hand, and the Board’s jurisdictional rulings,
on the other.6 The distinction has multiple infirmities.
“If Congress had wanted to [bifurcate judicial
review,] send[ing] merits decisions to district court
and procedural dismissals to the Federal Circuit,” we
observed in Kloeckner, “it could just have said so.”
Id., at 52. The same observation could be made about
bifurcating judicial review here, sending the MSPB’s
merits and procedural decisions to district court, but
its jurisdictional dismissals to the Federal Circuit.7
5 If, as the dissent and the Government argue, see post, at 8-10;
Brief for Respondent 19-26, 33-35, Perry’s case is not “mixed,”
one can only wonder what kind of case it is, surely not one
asserting rights under the CSRA only, or one invoking only
antidiscrimination law. See supra, at 1-2. This is, of course, a
paradigm mixed case: Perry alleges serious personnel actions
(suspension and forced retirement) caused in whole or in part
by prohibited discrimination. So did the employee in Kloeckner.
She alleged that her firing (a serious personnel action) was
based on discrimination. See 568 U.S., at 47. Thus Perry, like
Kloeckner, well understood what the term “mixed case” means.
6 Notably, the dissent ventures no support for the principal
argument made by the Government, i.e., that MSPB jurisdictional
dispositions belong in the Federal Circuit, procedural and
merits dispositions, in district court.
7 As Judge Dyk, dissenting in Conforto v. Merit Systems
Protection Bd., 713 F.3d 1111 (CA Fed. 2013), pointed out:
“[W]here Congress intended to distinguish between different
types of Board decisions, it did so expressly.” Id., at 1124, n. 1

App.75a
The Government’s attempt to separate jurisdictional dismissals from procedural dismissals is newly
devised. In Kloeckner, the Government agreed with
the employee that there was “no basis” for a procedurejurisdiction distinction. Brief for Respondent, O. T.
2012, No. 11-184, p. 25, n. 3; see Reply to Brief in
Opposition, O. T. 2012, No. 11-184, pp. 1-2 (stating
employee’s agreement with the Government that
procedural and jurisdictional dismissals should travel
together). Issues of both kinds, the Government there
urged, should go to the Federal Circuit. Drawing
such a distinction, the Government observed, would
be “difficult and unpredictable.” Brief in Opposition
in Kloeckner, O. T. 2012, No. 11-184, p. 15 (internal
quotation marks omitted). Now, in light of our holding
in Kloeckner that procedural dismissals should go to
district court, the Government has changed course,
contending that MSPB procedural and jurisdictional
dismissals should travel different paths.8
(citing § 3330b(b) (“An election under this section may not be
made . . . after the [MSPB] has issued a judicially reviewable
decision on the merits of the appeal.” (emphasis added));
§ 7703(a)(2) (“The Board shall be named respondent in any
proceeding brought pursuant to this subsection, unless the
employee . . . seeks review of a final order or decision on the
merits . . . .” (emphasis added))).
8 This is not the first time the Government has changed its
position. Before the Federal Circuit in Ballentine v. Merit
Systems Protection Bd., 738 F.2d 1244 (1984), the Government
moved to transfer to district court an appeal challenging a
jurisdictional dismissal by the MSPB. See id., at 1245. The
Government argued that “even a question of the Board’s
jurisdiction to hear an attempted mixed case appeal must be
addressed by a district court.” Id., at 1247 (internal quotation
marks omitted). Rejecting the Government’s position, the
Federal Circuit concluded that it could review MSPB decisions

App.76a
A procedure-jurisdiction distinction for purposes
of determining the court in which judicial review lies,
as both parties recognized in Kloeckner, would be
perplexing and elusive. If a 30-day suspension followed
by termination becomes nonappealable to the MSPB
when the Board credits a release signed by the
employee, one may ask why a determination that the
employee complained of such adverse actions (suspension and termination) too late, i.e., after a Board-set
deadline, does not similarly render the complaint
nonappealable. In both situations, the Board disassociates itself from the case upon making a threshold determination. This Court, like others, we note,
has sometimes wrestled over the proper characterization of timeliness questions. Compare Bowles v.
Russell, 551 U.S. 205, 209-211, 215 (2007) (timely
filing of notice of appeal in civil cases is “jurisdictional”), with id., at 217-219 (Souter, J., dissenting)
(timeliness of notice of appeal is a procedural issue).
Just as the proper characterization of a question
as jurisdictional rather than procedural can be slippery,
the distinction between jurisdictional and merits
issues is not inevitably sharp, for the two inquiries
may overlap. See Shoaf v. Department of Agriculture,
260 F.3d 1336, 1341 (CA Fed. 2001) (“recogniz[ing]
that the MSPB’s jurisdiction and the merits of an
alleged involuntary separation are inextricably intertwined” (internal quotation marks omitted)). This
on “procedural or threshold matters, not related to the merits of
a discrimination claim.” Ibid. In Kloeckner, we disapproved the
Federal Circuit’s holding with respect to MSPB procedural
dismissals. 568 U.S., at 50, 56. Today we disapprove Ballentine’s
holding with respect to jurisdictional dismissals, thereby adopting
precisely the position advanced by the Government in that case.

App.77a
case fits that bill. The MSPB determined that it
lacked jurisdiction over Perry’s civil-service claims on
the ground that he voluntarily released those claims
by entering into a valid settlement with his employing
agency, the Census Bureau. See App. to Pet. for Cert.
27a.9
But the validity of the settlement is at the heart
of the dispute on the merits of Perry’s complaint. In
essence, the MSPB ruled that it lacked jurisdiction
because Perry’s claims fail on the merits. See Shoaf,
260 F.3d, at 1341 (If it is established that an employee’s
“resignation or retirement was involuntary and thus
tantamount to forced removal,” then “not only [does
the Board] ha[ve] jurisdiction, but also the employee
wins on the merits and is entitled to reinstatement.”
(internal quotation marks omitted)). See also Conforto, 713 F.3d, at 1126 (Dyk, J., dissenting) (“[I]t cannot be that [the Federal Circuit] lack[s] jurisdiction
to review the ‘merits’ of mixed cases but nevertheless
may review ‘jurisdictional’ issues that are identical to
the merits . . . .”).10

9 In civil litigation, a release is an affirmative defense to a
plaintiff’s claim for relief, not something the plaintiff must
anticipate and negate in her pleading. See Fed. Rule Civ. Proc.
8(c)(1) (listing among affirmative defenses “release” and
“waiver”); Newton v. Rumery, 480 U.S. 386, 391 (1987). In that
light, the MSPB jurisdiction should be determined by the
adverse actions Perry asserts, suspension and forced retirement;
the settlement releasing Perry’s claims would figure as a
defense to his complaint, it would not enter into the determination
whether the Board has jurisdiction over his claims.
10 If a reviewing court “agree[d] with the Board’s assessment,”
then Perry would indeed have “lost his chance to pursue
his . . . discrimination claim[s],” post, at 3, for those claims

App.78a
Distinguishing between MSPB jurisdictional rulings and the Board’s procedural or substantive rulings
for purposes of allocating judicial review authority
between district court and the Federal Circuit is
problematic for a further reason: In practice, the distinction may be unworkable. The MSPB sometimes
rules on alternate grounds, one typed “jurisdictional,”
another either procedural or substantive. See, e.g.,
Davenport v. Postal Service, 97 MSPR 417 (2004)
(dismissing “for lack of jurisdiction and as untimely
filed” (emphasis added)). To which court does appeal
lie? Or, suppose that the Board addresses a complaint
that encompasses multiple claims, dismissing some
for want of jurisdiction, others on procedural or substantive grounds. See, e.g., Donahue v. Postal Service,
2006 WL 859448, *1, *3 (ED Pa., Mar. 31, 2006).
Tellingly, the Government is silent on the proper
channeling of appeals in such cases.
Desirable as national uniformity may be,11 it
should not override the expense, delay, and inconvenience of requiring employees to sever inextricably
related claims, resorting to two discrete appellate
forums, in order to safeguard their rights. Perry’s
would have been defeated had he voluntarily submitted to the
agency’s action.
11 In Kloeckner, we rejected the Government’s national uniformity
argument. See 568 U.S., at 55-56, n. 4. “When Congress passed
the CSRA, the Federal Circuit did not exist,” we observed, so
uniformity did not then figure in Congress’ calculus. Id., at 56,
n. 4. Moreover, even under the Government’s reading, “many
cases involving federal employment issues [would be resolved]
in district court. If the MSPB rejects on the merits a complaint
alleging that an agency violated the CSRA as well as an antidiscrimination law, the suit will come to district court for a
decision on both questions.” Ibid.

App.79a
comprehension of the complex statutory text, we are
persuaded, best serves “[t]he CSRA’s objective of
creating an integrated scheme of review[, which]
would be seriously undermined” by “parallel litigation regarding the same agency action.” Elgin, 567
U.S., at 14. See also United States v. Fausto, 484
U.S. 439, 444-445 (1988).12 Perry asks us not to
“tweak” the statute, see post, at 1, but to read it
sensibly, i.e., to refrain from reading into it the
appeal-splitting bifurcation sought by the Government. Accordingly we hold: (1) the Federal Circuit is
the proper review forum when the MSPB disposes of
complaints arising solely under the CSRA; and (2) in
12 In both Elgin v. Department of Treasury, 567 U.S. 1 (2012),
and United States v. Fausto, 484 U.S. 439 (1988), we rejected
employees’ attempts to divide particular issues or claims among
review forums. In Elgin, a federal employee opted not to seek
review of an MSPB ALJ’s decision, either before the full Board
or in the Federal Circuit; he instead brought in District Court,
in the first instance, a constitutional challenge to an agency
personnel action. 567 U.S., at 7-8. We concluded that an employee
with civil-service claims must follow the CSRA’s procedures and
may not bring a standalone constitutional challenge in district
court. Id., at 8. In Fausto, a federal employee with CSRA claims
filed an action in the United States Claims Court under the
Back Pay Act of 1966. 484 U.S., at 443. We determined that the
employee could not bring his action under the Back Pay Act
because the CSRA provided “the comprehensive and integrated
review scheme.” See id., at 454. Contrary to the dissent’s
suggestion, see post, at 10, neither case indicated that the
Federal Circuit, as opposed to district court, is the preferred
forum for judicial review of all CSRA claims. Rather, both
decisions emphasized the benefits of an integrated review
scheme and the problems associated with bifurcating consideration of a single matter in different forums. See 567 U.S., at 1314; 484 U.S., at 444-445. It is the dissent’s insistence on bifurcated
review, therefore, that “Elgin and Fausto warned against,” post,
at 10.

App.80a
mixed cases, such as Perry’s, in which the employee
(or former employee) complains of serious adverse
action prompted, in whole or in part, by the employing
agency’s violation of federal antidiscrimination laws,
the district court is the proper forum for judicial
review.
[***]
For the reasons stated, the judgment of the
United States Court of Appeals for the District of
Columbia Circuit is reversed, and the case is remanded
for further proceedings consistent with this opinion.
It is so ordered.

